<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                        WEDNESDAY, APRIL 6, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:36 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. John Hoeven (chairman) presiding.
    Present: Senators Hoeven, Shaheen, and Tester.

                    DEPARTMENT OF HOMELAND SECURITY

                   Science and Technology Directorate

STATEMENT OF HON. DR. REGINALD BROTHERS, UNDER 
            SECRETARY FOR SCIENCE AND TECHNOLOGY


                opening statement of senator john hoeven


    Senator Hoeven. The subcommittee will come to order. Good 
afternoon to all of you.
    I would like to welcome our ranking member, Senator 
Shaheen. Thank you for being here and joining us.
    Also, Senator Tester, thank you for joining us as well.
    Senator Cochran will be joining us in a bit, and there may 
be some other members of the subcommittee that will be joining 
us as well.
    I want to thank and welcome all of our witnesses today. 
Thank you very much for your work, and thank you for being here 
today, Dr. Reggie Brothers, Under Secretary for Science and 
Technology; Dr. Kathryn Brinsfield, Director of the Office of 
Health Affairs; and also Dr. Huban Gowadia--I hope I said that 
right; if not, correct me--Director of the Domestic Nuclear 
Detection Office (DNDO). So thanks to all of you for being here 
and for your work.
    We have called this hearing to examine research and 
development (R&D) efforts performed at the Department of 
Homeland Security (DHS). By the Department's own definition, 
the fiscal year 2017 request for DHS includes $636 million in 
R&D funding. However, a number of congressional priorities have 
not been identified as R&D, such as $133 million in Science and 
Technology (S&T) laboratory facilities, so that is one thing we 
will want to talk about.
    As we seek to examine the effectiveness of R&D efforts, it 
is important to understand the level of resources being 
applied, what is considered operating, what is considered R&D. 
So we hope DHS will continue to work with the subcommittee to 
better define its funding categories.
    My focus for this hearing will be on three key areas.
    First, I want to examine the metrics that you are 
collecting and how those measures are affecting resource 
decisions. How does the Department measure success in its R&D 
efforts? How and when do agencies decide to stop a project with 
interim solutions or abandon efforts that are not bearing 
results?
    Second, this hearing is an opportunity to highlight results 
from R&D efforts. For example, Science and Technology's work in 
big data analytics transitioned from the laboratory and is 
generating investigative leads for Immigration and Customs 
Enforcement (ICE) agents, who are satisfied with this new 
capability.
    In another example, S&T is prototyping technology that 
saves lives. Through a joint effort with NASA, a device called 
FINDER located four men trapped under 10 feet of mud and debris 
after an earthquake in Nepal.
    Yet, for the investments that have been made in R&D at DHS 
since 2003, do we have the right number of success stories? 
What are our metrics? How do we measure success?
    Third, I want to hear about projects to address emerging 
threats and priorities. An area of particular interest is in 
unmanned aerial vehicles, both in terms of countering malicious 
purposes by the adversaries, and as an effective force 
multiplier for ourselves.
    Cybersecurity concerns are foremost in many of our minds, 
particularly as we read about possible threats of GPS spoofing 
and cyberattacks on airplanes, self-driving cars, and other 
items in the Internet of things.
    One effort within the Office of Health Affairs fits within 
all three of the focus areas that I just outlined for this 
hearing--biosurveillance and detection. Today, our only 
civilian capability comes through BioWatch, a system to detect 
select biological agents in the air. Units placed in 30 cities 
around the country capture air samples, and then people collect 
and test those samples.
    Unfortunately, the current BioWatch system raises issues. 
According to the Government Accountability Office (GAO), the 
units may not be deployed or sufficiently effective in the most 
needed locations. It takes days, in most locations, to get 
results. And the number of false positives leads to a lack of 
trust by local officials that data may not be actionable.
    Several years ago, an effort to enhance BioWatch technology 
was abandoned. That may have been the right decision, but now 
we see a program continuing along a flat line in terms of 
capability, which does not match the threat or necessarily the 
need at this point.
    Dr. Brinsfield's testimony points out the importance of 
planning, exercises, and training as part of BioWatch. DHS 
should work with State and local officials on those activities.
    The question today is about what the technology provides 
and what R&D could bring to improve our biodetection and 
surveillance efforts.
    In closing, let me just note that effective R&D programs 
require a skilled work force, or as my colleague, Senator 
Shaheen, has reminded me, people power. I think that is a 
direct quote.
    Senator Shaheen. I like it.
    Senator Hoeven. It is a good one. Consisting of sharp 
employees who are managed and led well, and who recognize their 
mission.
    DHS has a number of work force challenges, but we should 
recognize the bright spots, too. DNDO has consistently ranked 
as one of the best places to work in the annual Partnership for 
Public Service Work Force surveys.
    Good work. I want to ask about how DNDO operates and the 
lessons other organizations in DHS can learn from its survey 
results.
    With that, I will turn to Senator Shaheen.


                  statement of senator jeanne shaheen


    Senator Shaheen. Thank you, Mr. Chairman. I would like to 
echo your appreciation to our three witnesses who are 
testifying today.
    As our adversaries evolve and our environment continues to 
change, so too should the Department of Homeland Security. 
Research and development investment is one way to provide the 
technologies and solutions to detect, deter, and respond to the 
risks facing the homeland.
    DHS must be strategic in how it prioritizes R&D investments 
to counter a myriad of threats such as cyber intrusions, plots 
to bring down aircraft, biological or nuclear attacks, violent 
extremism, and natural disasters.
    Every dollar we spend in R&D has to count, and taxpayers 
should expect to receive a good return on investment.
    Like Senator Hoeven, I was fascinated by the information 
about FINDER. It is the kind of innovation that I think is very 
exciting, as we think about what our investments might be able 
to do.
    And I am encouraged that DHS is beginning to really explore 
alternative methods to solve complex problems. DHS recently set 
up an office in Silicon Valley to leverage the expertise of 
some of this country's brightest minds in technology.
    Incidentally, it was interesting to see both Secretary 
Carter talking about using expertise from Silicon Valley to 
help us think about cybersecurity and other challenges facing 
the country, and also Secretary Kerry talking with the private 
sector in the media and film business to help us think about 
innovations there that could be helpful as we are addressing 
the challenges we face with countering violent extremism.
    So I do think that this is a very good use of resources to 
think about how we better engage the private sector. The office 
recently awarded its first contract focused on the security of 
network devices.
    But while there is progress, I think we also need to 
examine the overall spending level for DHS R&D, given the 
serious threats that are facing our country. Compared to other 
Cabinet-level agencies, DHS dedicates a very small portion of 
its total budget to R&D, just over 1 percent.
    And we need to connect and enlist our small businesses in a 
robust way to help DHS address its technology demand. I know 
that this is something that the Secretary is very interested in 
doing, because small businesses are really innovators in this 
country. They employ nearly 40 percent of America's scientists 
and engineers. They produce 14 times more patents than large 
businesses and universities. That is one of my favorite 
statistics.
    Given this extraordinary track record of innovation, it 
makes sense to involve small businesses in developing new 
technologies. Plus, in New Hampshire, we have a lot of small 
businesses, so I like the idea that they can be part of some of 
this groundbreaking technology.
    Finally, I think we want to learn more today about the 
Department's proposal to merge the Office of Health Affairs 
together with the Domestic Nuclear Detection Office. And I look 
forward to hearing more discussion about that.
    So, Mr. Chairman, thank you for holding the hearing.
    Thank you to our witnesses. I look forward to your 
testimony.
    Senator Hoeven. Thank you, Senator Shaheen.
    Senator Tester, opening statement? Would you like to go 
ahead, so you can go to your other hearing?
    Senator Tester. I would like to hear the testimony.
    Senator Hoeven. Very good.
    Under Secretary Brothers, we will begin with you.


            summary statement of hon. dr. reginald brothers


    Dr. Brothers. Good afternoon and thank you for this 
opportunity to discuss research and development in the 
Department of Homeland Security and the Science and Technology 
Directorate's budget request for fiscal year 2017.
    Before I begin, I want to extend my personal thanks to the 
subcommittee for its partnership and assistance as I joined the 
Directorate almost 2 years ago. Your flexibility has allowed us 
to more effectively bring resources to bear on emergent needs 
and exigent circumstances in the Department.
    The most significant result is a more robust technical 
advisory role to the Secretary and the components in urgent 
projects. Over the last 2 years, that has included work on 
unmanned aircraft systems (UAS), aviation security, and social 
media screening, among others.
    The flexibility is also critical to our expansion of Apex 
programs and creation of Apex engines, the benefits of which we 
are already beginning to see in S&T in the Department.
    I am grateful for your partnership and continued support 
moving forward.
    Our research and development portfolio at the Science and 
Technology Directorate, or S&T, extends across diverse Homeland 
Security mission areas including, among others, bio, borders, 
cyber, transportation, first responders, and disaster 
resilience.
    S&T is responsible for six Homeland Security labs, 10 
Centers of Excellence, and 144 participating universities, and 
a significant support role for the Department's acquisition 
processes.
    The portfolio must consider the full range of Homeland 
Security mission needs in all their considerable breadth and 
diversity, with a comparatively modest budget. To accomplish 
this, we prioritize where we spend our limited funding against 
hundreds of ranked capability gaps provided by end-users.
    At the end of the day, we look across this set of potential 
projects, check what we can afford to do, where investment 
might make the most difference, and execute accordingly.
    S&T's fiscal year 2017 funding request is vital to ensuring 
we can maintain our existing work on technology and knowledge 
products and capabilities. DHS needs to improve operational 
effectiveness and efficiencies.
    As a research development arm and technical center of 
gravity for the Department, investment in innovation through 
S&T has significant, lasting impact on improving and maturing 
DHS operational capabilities and technology solutions for the 
Homeland Security enterprise. Likewise, a downward trend in R&D 
budget over time signals decreased potential for science-based 
and technical solutions, even as demand increases in the 
Department and our State and local stakeholders.
    After 2 years at S&T, I am proud of how well-positioned we 
are. We have visionary goals that capitalize on creativity, and 
serve as north stars within S&T and our broader technical 
community. We have an updated strategy that focuses our 
portfolio on force-multiplying solutions. We created the first-
ever S&T employee council, and we are seeing initial favorable 
momentum in our employee survey scores.
    We see promising results from experiments with 
accelerators, prize competitions, and other innovative ways to 
reach the private sector.
    One noteworthy achievement was reestablishment of the 
Department's integrative product teams, or IPTs. These are 
formal mechanisms for identifying work underway across the 
Department and prioritizing technological capability gaps 
across DHS mission areas.
    Alongside existing IPTs supporting our Nation's first 
responders, S&T and its operational partners started five of 
these teams to complete these inaugural cycles in only 6 
months. They validate ongoing activities and prioritize project 
topics in respective mission areas.
    The ultimate result is better integration of S&T with DHS 
component activities and joint assurance through a formal 
report to the Secretary that technological solutions will 
address operational needs. The IPT process represents a major 
step forward for the cumulative effort across the Department.
    I will close with a quick story that illustrates the 
evolution from capability gap to solution. Homemade explosives 
have emerged in last decade as materials of choice for 
improvised explosive devices in numerous terrorist attacks and 
plots. Unlike conventional threats, they are produced using 
household items and are difficult to detect in small but still 
destructive amounts.
    These explosives represent one of the Department's top 
priorities, and are particularly relevant in wake of what we 
know about the recent Brussels attacks.
    So what is S&T doing to move the needle? S&T begins with a 
need for fundamental understanding of the chemical signatures 
of these explosives. Since relative to other explosives, they 
are brand new, end-users need to know how they differ from 
water or shampoo in how they perform.
    We work with our university and interagency partners. And 
once S&T has a bedrock of basic science understanding, we are 
to figure out safe ways to train canines, to help State and 
local bomb squads, to teach transportation security officers 
(TSOs) to find them.
    Through our lab, S&T brings in the private sector to build 
machines and code algorithms powerful enough to see explosives 
wherever they are hidden.
    And S&T must work with our end-users to determine the 
impact of all the above on operations, frontline employees, 
State and local enforcement, a huge list of folks who need to 
know this and figure out how to get technology out of labs and 
integrated into existing teams and complicated systems.
    On top of all this, homemade explosives are a moving 
target. With each new threat to emerge, S&T starts again from 
the beginning. We activate and reactivate our subject matter 
experts, university researchers, lab assets, and international 
partners to get solutions to operate as quickly as possible.
    The Transportation Security Administration (TSA), Secret 
Service, the Federal Protective Service, the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF), the Federal Bureau of 
Investigation (FBI), State and local bomb squads, canine teams, 
border immigration agents--these are men and women on the 
frontlines depending on S&T to help them stay ahead of our 
adversaries.
    Thank you again to the subcommittee for your flexibility 
and support of S&T and all the work we do. I appreciate your 
time today, and I look forward to your questions.
    [The statement follows:]
                Prepared Statement of Reginald Brothers
    Good afternoon Chairman Hoeven, Ranking Member Shaheen, and 
distinguished members of the Committee. Thank you for the opportunity 
to testify before you today on the Department of Homeland Security's 
(DHS) Science and Technology Directorate (S&T). S&T's mission is to 
deliver effective and innovative insight, methods, and solutions for 
the critical needs of the Homeland Security Enterprise (HSE). 
Technology simultaneously enables both homeland security operators and 
malevolent actors and, as a result, has a significant and expanding 
impact on current and future threat environments. I look forward to 
discussing S&T's fiscal year (FY) 2017 budget request and how research 
and development (R&D) improves the operational capabilities of DHS 
Components and the first responder community.
  science and technology directorate's fiscal year 2017 budget request
    S&T's budget request is $758.7 million for fiscal year 2017. This 
amount represents a decrease of $28.2 million, or 3.6 percent less than 
the $786.9 million provided to S&T in fiscal year 2016. Over the last 2 
years, the flexibility afforded to S&T has allowed better 
responsiveness to emergent needs and exigent circumstances in the 
Department and contributed to a more robust technical advisory role to 
the Secretary and Components for urgent projects, including countering 
Unmanned Aircraft Systems (UAS), aviation screening, and social media 
screening. The flexibility was also critical to S&T's expansion of Apex 
programs and creation of Apex Engines, which have already begun to 
benefit S&T and the Department. I thank the Committee for its 
partnership and assistance in expanding the profile of scientific and 
technical advice in the Department and for its continued support moving 
forward in fiscal year 2017.
    As part of DHS's new Common Appropriation Structure in fiscal year 
2017, S&T's request aligns funding within three of the Department's 
lifecycle-based appropriations fund types: Research and Development; 
Procurement, Construction, and Improvements; and Operations and 
Support. S&T's fiscal year 2017 request includes no funding in the 
Department's fourth fund type, which is Federal Assistance.
    The fiscal year 2017 budget request includes $469.9 million for 
R&D, a $26.1 million decrease compared to fiscal year 2016 funding. 
Within the requested amount, $33.0 million is for University Programs, 
an $8.6 million decrease, and $436.9 is for Research, Development, and 
Innovation, a $17.4 million decrease. By thrust area, the Research, 
Development, and Innovation request includes $79 million for Apex; $56 
million for Border Security; $58.4 million for Chemical, Biological, 
and Explosives Defense; $65.7 million for Counter Terrorist; $71 
million for Cyber Security and Information Analytics; $87.4 million in 
First Responder and Disaster Resilience; and $19.4 million for salaries 
and benefits. The funding in these thrust areas is S&T's principal 
means for providing state-of-the-art technologies and solutions and 
meeting broad and diverse mission requirements from throughout the 
Homeland Security Enterprise.
    The request also includes $65.9 million for Acquisition and 
Operation Analysis that includes $48.4 million to fund S&T's work to 
strengthen the DHS acquisition process, standards development work, the 
SAFETY Act, international cooperative research and development, 
interagency work, and technology transition support and $17.5 million 
for salaries and benefits. To support the DHS acquisition process, S&T 
provides test and evaluation oversight, systems engineering, operations 
research, and technical risk assessments of major DHS acquisition 
programs.
    Finally, the budget request includes $133.9 million for Laboratory 
Facilities, which includes $111.1 million in operations costs and $22.8 
million for salaries and benefits. The request includes funding to 
operate the now-under-construction National Bio and Agro-Defense 
Facility (NBAF) located in Manhattan, KS. As construction nears 
completion and as research programs and veterinary research staff begin 
to transition from the Plum Island Animal Disease Center, NBAF will 
continue to require funding for operations ahead of the Full 
Operational Capability planned by December 2022.
             support for the department in fiscal year 2017
    The fiscal year 2017 funding request is vital to ensuring S&T 
delivers the technology knowledge products and capabilities DHS needs 
to improve operational effectiveness and efficiencies. In supporting 
end users across the broad and diverse mission areas of the Department, 
S&T maximizes value within a comparatively modest pool of funds. As the 
technical and research center for the Department, an investment in 
innovation through S&T has a significant, lasting impact on improving 
and maturing DHS operational capabilities and technology solutions for 
the HSE.
    S&T is providing technology to strengthen border security. fiscal 
year 2017 funding for border security technology will provide needed 
capability to U.S. Customs and Border Protection (CBP) and U.S. Coast 
Guard (USCG). In fiscal year 2017, S&T will:
  --Demonstrate a southern border capability with CBP to detect, track, 
        and classify low flying/low observables aircraft along 
        difficult terrain on the borders;
  --Transition to CBP a covert and inexpensive capability to detect 
        personnel, aircraft, and vehicles crossing the border with 
        classification algorithms that significantly reduce nuisance 
        and false alarms;
  --Demonstrate a capability mounted on USCG Search and Rescue aircraft 
        that will permit higher altitude/higher speed searches for 
        people in the water, enabling larger coverage areas and a 
        greater probability of detection, resulting in saved lives; and
  --Pilot new or improved traveler inspection tools and processes to 
        strengthen CBP's screening and inspection of travelers entering 
        the United States.
    S&T is testing new and existing capabilities to counter the 
terrorist threat. S&T is examining how to counter behavioral aspects of 
terrorism and how to counter emerging technology threats. S&T will 
evaluate mitigation technologies designed for protection at point, 
perimeter, and wide area venues against UAS as part of a multi-agency 
team. The resulting testbed will deliver an urban test environment 
where DHS and its partners can evaluate countermeasure systems and 
score them against their specific operational use cases.
    S&T is improving DHS acquisition programs. S&T has become an 
integral player in DHS improving acquisition oversight. Work in fiscal 
year 2017 includes:
  --Technical assessments of 13 major acquisition programs in support 
        of the Acquisition Review Board (ARB);
  --Operational Test and Evaluation (OT&E) engagement with 45 major 
        acquisition programs;
  --Operations research studies in support of four DHS Components; and
  --Continuous support for the Joint Requirements Council's (JRC) 
        Portfolio Teams.
    S&T is improving cybersecurity and cyber-physical systems. S&T is 
working to mitigate fundamental weaknesses in cyber systems. In fiscal 
year 2017, S&T will attack the following issues:
  --Government networks retain significant cyber security weaknesses 
        that are being exploited, and the National Cyber Protection 
        System (NCPS) and Continuous Diagnostics and Mitigation (CDM) 
        programs need rapid and adaptive capabilities to address these 
        weaknesses over a 12 to 24 month timeframe. fiscal year 2017 
        will address key elements needed to support Einstein 3A (E3A) 
        and CDM, such as classified signatures evaluation, E3A/CDM 
        integration, measurement infrastructure, treatment of key 
        Internet traffic protocols and communications, and red-team 
        capabilities.
  --The government automotive fleet remains vulnerable to cyber 
        hacking. fiscal year 2017 funding completes the establishment 
        of the technical development consortium between DHS and major 
        automotive companies and suppliers; it also supports Phase I 
        development of secure purchasing guidelines for government 
        automotive fleet management (General Services Administration, 
        DHS including CBP, Department of Justice, state and local law 
        enforcement, etc.).
    S&T is developing better baggage scanners for aviation checkpoints. 
S&T is integrating new technology and more sophisticated technical 
approaches to create scanning machines that are faster and more 
dependable. In fiscal year 2017, S&T will demonstrate a carry-on 
baggage screener that provides better capability with higher throughput 
and substantially fewer false alarms. This will support the 
Transportation Security Administration's (TSA) efforts to secure 
luggage and identify threats in a less obtrusive way in the future.
    S&T is supporting first responders with better communications, 
decisionmaking tools, and enhanced capability. S&T is working with 
first responders to address their most pressing capability gaps and 
help them do their jobs more safely and effectively. In fiscal year 
2017, S&T will:
  --Demonstrate a system with the Los Angeles Fire Department that uses 
        artificial general intelligence to help responders navigate 
        unpredictable conditions and improve situational awareness;
  --Collaborate with U.S. Immigration and Customs Enforcement (ICE) 
        Homeland Security Investigations to decrease the time it takes 
        agents to identify child abuse victims and their perpetrators 
        using imagery analytics related to facial and object 
        recognition; and
  --Operationalize a Hurricane Evacuation Planning tool with Federal 
        Emergency Management Association (FEMA) that will streamline 
        and automate updates for storm surge risk maps, evacuation 
        zones, and evacuation clearance times ultimately helping local 
        communities make faster, more efficient, and more informed 
        evacuation decisions and save lives from hurricanes.
    S&T is supporting countermeasures that protect the public from 
biological attacks. S&T helps our interagency partners understand the 
risk of potential pathogens to guide development and acquisition of 
countermeasures for the Strategic National Stockpile. In fiscal year 
2017, S&T is delivering three material threat assessments of 
filoviruses, smallpox, and botulism toxin to the U.S. Department of 
Health and Human Services to support potential acquisition of medical 
countermeasures and keep the American public safe from harm.
              better connecting s&t within the department
    A significant accomplishment this year as part of the Secretary's 
Unity of Effort Initiative was the re-establishment of a departmental 
Integrated Product Team (IPT) process. In August 2015, the Secretary 
established mission-focused IPTs for the purpose of identifying and 
prioritizing technological capability gaps and coordinating R&D to 
close those gaps across the mission areas of the Department. The 
overall effort is led by S&T, but the individual IPTs are chaired by 
senior representatives from the operational Components, with 
representation from operational and HQ Components as well as the Joint 
Requirements Council.
    The first cycle of IPTs addressed the following five topic areas: 
Aviation Security, Biological Threats, Counterterrorism, Border 
Security, and Cyber Security. S&T also continues its existing IPT 
supporting our Nation's first responders through the First Responder 
Resource Group, and additional sub-IPTs were created that address sub-
topics (e.g., maritime security for border security) and key issues 
(e.g. resilience). This intentionally broad and inclusive approach also 
has helped us address some of the concerns voiced by the U.S. 
Government Accountability Office and Congress that R&D in the 
Department is insufficiently coordinated. We are on schedule to deliver 
results of the inaugural process to the Secretary later this year, and 
I am proud of how quickly S&T and our partners in the Department came 
together to establish and execute the process.
    As they mature moving forward, IPTs will be the primary vehicle for 
the Department to identify, coordinate, prioritize, and validate R&D 
efforts supporting DHS priority missions. Most importantly, IPTs are 
connecting S&T more closely with the offices in Components trying to 
fill capability gaps and acquire technological solutions to meet 
operational needs. This will strengthen the applicability of S&T's 
deliverables and enhance the effectiveness of operational solutions for 
the Components.
         meeting operational needs and closing capability gaps
    I previously mentioned the flexibility afforded to S&T by the 
Committee, which has allowed better responsiveness to emergent needs 
and exigent circumstances in the Department. In areas such as 
countering Unmanned Aircraft Systems (UAS), aviation screening, and 
social media screening, S&T has been able to use its resources to 
support a more robust technical advisory role.
    Last year, the Secretary requested that S&T work with the White 
House as interagency lead in developing a capability to counter the 
growing UAS threat. S&T's initial role was to lead the interagency 
working group including U.S. Capitol Police, U.S. Park Police, 
Washington DC Metropolitan Police Department, Department of Justice, 
Federal Aviation Administration, and DHS Components that produced the 
National Capital Region Gyrocopter Incident Intergovernmental After-
Action Report, released June 2015, and subsequent whole-of- community 
response plan. Concurrently, S&T began cataloging relevant existing 
technology and developmental work across government including the 
Department of Defense. This became the basis for an R&D plan that, as 
it unfolds, will help drive private sector development of a capability 
or capabilities to meet our customers' diverse needs. Perhaps as 
importantly, the effort will inform our customers, to make them smarter 
consumers of existing and future technology, as well as the decision 
makers responsible for the future policy and legal framework for use of 
UAS.
    S&T was also able to support the TSA's response to last year's 
results of covert testing of passenger screening operations by the DHS 
Office of the Inspector General. At the Secretary's request and with 
TSA's full cooperation, S&T was tasked to evaluate the current 
screening process as a risk-based ``system of systems'' and consider 
innovative or disruptive technologies, policies, and operating 
procedures that could improve overall screening performance and reduce 
risk. This effort was a horizon-focused effort that was complementary 
to TSA's own internal, immediate-term evaluation. With the aviation 
screening effort as a basis moving forward, S&T and TSA continue their 
close partnership in exploring and implementing innovative approaches 
to securing the transportation sector.
    Finally, last December after the events in San Bernardino, CA, the 
Department stood up a Social Media Task Force led by the DHS Office of 
Intelligence and Analysis to assess social media policies, processes, 
and capabilities and to develop recommendations to leverage 
departmental authorities and capabilities to exploit social media 
during the vetting process. As one of three supporting efforts, S&T's 
Data Analytics Engine initiated a pilot supporting U.S. Citizenship and 
Immigration Services (USCIS) to address K-1 visa (i.e., fiance/e visa) 
and refugee screening requirements using social media. S&T and USCIS 
are experimenting with leading-edge commercial tools to understand how 
publicly-available social media can inform the immigration vetting 
process. S&T has also reviewed hundreds of tools through a Request for 
Information and an Industry Day to determine technical capabilities 
available in the marketplace relative to all DHS use cases--screening 
and vetting, investigations, and situational awareness. S&T plans to 
continue to work with industry to identify and/or further develop 
social media analytic capabilities for DHS missions. The core technical 
capabilities that constitute the Apex Technology Engines help DHS 
rapidly develop and deploy new technologies in high-profile and high-
risk events.
    The technical advisory role described here is an important and 
sometimes under-appreciated aspect of S&T's value to the Department. 
The immediacy of the work and difficulty to anticipate funding 
requirements in advance also uniquely strain our ability to marshal 
resources. For this once again, we are grateful to the Committee for 
the flexibility it affords, which augments this ability for S&T to 
contribute to the Department's most immediate emergent needs as they 
arise.
           refinement and innovation in s&t's approach to r&d
    One of my first priorities after joining S&T was establishing 
visionary goals that would help orient S&T's investments toward longer 
horizon, leap-ahead capabilities. As demonstrated above, S&T continues 
to work closely with Component partners and other stakeholders on 
immediate needs, but the organization at the time lacked comprehensive, 
far-reaching visionary goals looking 20 or more years into the future 
and driving toward ambitious improvements. S&T shared draft goals in 
the Department and with the public through a crowd-sourcing website 
where we received more than 1,000 comments and suggestions from all of 
S&T's major stakeholder groups inside and outside government. The final 
S&T Visionary Goals, with input from the entire HSE, are the following:
  --Screening at Speed: Security that Matches the Pace of Life
  --A Trusted Cyber Future: Protecting Privacy, Commerce, and Community
  --Enable the Decision Maker: Actionable Information at the Speed of 
        Thought
  --Responder of the Future: Protected, Connected, and Fully Aware
  --Resilient Communities: Disaster-Proofing Society
    To achieve these goals, we recognized that S&T needed to augment 
its approach to working with the private sector, and another of my 
earliest priorities at S&T was energizing a Homeland Security 
Industrial Base. DHS more than many Federal agencies and much more than 
the Department of Defense as one example, is dependent on commercially-
available, off-the-shelf products to achieve its mission. Because of 
this, partnership with industry, specifically in product development, 
is essential. R&D projects can yield isolated, one-off solutions, but a 
truly successful portfolio must strategically shape the shelf by 
inserting homeland security applications, if not as primary use cases 
or applications, at least as considerations during companies' product 
development cycles.
    I am proud to say that this is an area where we have enjoyed 
considerable success over the last 2 years. We launched innovative 
accelerator and prize competition platforms to reach innovators and 
communities that may have never heard from or worked with government 
before. S&T piloted an innovative program in Silicon Valley that aims 
to maintain constant, face-to-face contact with venture capital and 
start-up communities outside the Beltway including the Silicon Valley 
area. We developed a fresh public face by overhauling S&T's website to 
be more informative and transparent. Combine all of this with an 
updated Strategic Plan publication and willing partners within the 
Department including in the Management Directorate and Office of the 
General Counsel, and we are beginning to see real interest in the 
private sector in participating in a Homeland Security Industrial Base.
Accelerators
    Identifying and tapping into sources of innovation is critical to 
our ability to support frontline operators keeping the nation safe, and 
accelerators (i.e., seed funding and mentorship for entrepreneur teams 
and start-up companies to help them attract investment) are a valuable 
tool to do just that. Last year, S&T piloted a business accelerator 
program to see if accelerators would work in the homeland security 
mission space. The inaugural effort, named EMERGES, focused on 
commercially-available wearable technology that could be adapted for 
first responders. More than 100 startups applied to the inaugural 
class, and 18 were selected and eventually featured last September at a 
Demo Day in San Francisco. EMERGE passed each of our initial tests, 
demonstrating interest in the start-up community in participation and 
graduation from our accelerator as well as the ability for companies to 
successfully develop products that attract private investment and still 
meet homeland security needs. More than half of EMERGE participants 
received interest from new private venture capital and strategic 
investors, three already offer commercially-available products, and one 
was even featured on ``Shark Tank.'' Moving forward, we hope to build 
on this success in future iterations of homeland security accelerators 
in additional areas of work where the start-up community is ready to 
contribute.
Prize Competitions
    Last year, S&T launched its InnoPrize program to assist DHS 
planning and executing prize competitions. InnoPrize utilizes America 
COMPETES Act authority to execute part of President's updated 2015 
Strategy for American Innovation, which made it easier to use 
competition programs to encourage innovation, solve tough problems, and 
advance the core missions of the Department. This is a fresh approach 
to operational challenges, problem solving, and innovation aimed at 
problem solvers and solution makers uninterested in the burdens of 
traditional business with government but who otherwise are capable of 
helping.
    S&T conducted two prize competitions in our first year of 
implementation, one for fresh approaches to the enduring problem of 
tracking first responders in GPS-degraded or denied environments and a 
second to seed development of a community of interest around the new 
National Bio and Agro-Defense Facility. Our third competition drew 58 
submissions to help USCG improve navigational buoys by minimizing 
harmful impact to the ocean floor in environmentally-sensitive areas. 
Our experimentation with prize competitions in the last year has 
demonstrated their clear potential for widening our base of solvers and 
finding fresh approaches to some of the Department's enduring 
challenges, and I am excited to see wider use moving forward to 
continue infusing fresh perspective into some of our hardest problems.
Silicon Valley Presence
    Building upon our existing work and partnerships in Silicon Valley, 
S&T is leading a departmental pilot initiative to cultivate a pipeline 
of non-traditional partners (e.g., start-ups) to accelerate research 
and innovation around homeland security priorities. Ultimately, DHS is 
trying to incentivize developers to widen the aperture of earlier in 
their development roadmaps to include homeland security solutions, 
again with the effect of shaping the shelf of end products available to 
our operators and first responders.
    S&T worked closely with the DHS Office of Procurement Operations, 
including their Procurement Innovation Lab staff, to create an R&D-
appropriate model that would keep pace with the innovation community in 
places like Silicon Valley. The first S&T Innovation Other Transaction 
Solicitation cycle focuses on securing the Internet of Things and 
promoting novel ideas and technologies that improve situational 
awareness and security for protecting domains including the 16 critical 
infrastructure sectors monitored by DHS. It began with an ideation 
workshop connecting government end users and operators with 
participants from the private sector (large companies, manufacturers, 
venture capital, researchers, and small businesses) to frame the 
problem and jointly shape a path forward. The first award in February, 
only 30 days after the solicitation, went to a team aiming to secure 
Internet of Things infrastructure by improving visibility and providing 
dynamic detection as components connect or disconnect from a system. 
The Internet of Things solicitation is still open, and if our Silicon 
Valley presence continues to benefit the Department, S&T could use it 
as a model to launch a similar presence in communities like Austin, 
Boston, and Chicago around the country.
Empowering the S&T workforce
    One final aspect of S&T I ensured was not overlooked when I joined 
the Directorate was our organizational health and internal 
organization. It was clear based on conversations with S&T staff, in 
addition to a record of below average Federal Employee Viewpoint Survey 
(FEVS) scores that empowering the workforce would be critical moving 
forward. We performed an organizational health assessment and 
complementary root cause analysis to identify the most pressing areas 
for improvement. We stood up an S&T Employee Council to guide 
implementation and serve moving forward as a springboard for 
communication and advice for staff to leadership. Poor organizational 
health takes time to turn around, but improvements in S&T's most recent 
FEVS scores, including substantial increases in several key indices, 
demonstrate that S&T is moving in the right direction.
    recent examples of science and technology directorate successes
    To conclude, here are a few examples from the Results of fiscal 
year 2015 Research and Development report, recently delivered to 
Congress, that illustrate some of the strong work in S&T's portfolio 
supporting DHS Components and first responders:
  --In fiscal year 2015, ICE operationalized its Big Data network 
        architecture and tools, built by S&T's Data Analytics Engine 
        and delivered to ICE as part of the Border Enforcement 
        Analytics Program (BEAP) Apex, for agents in three major 
        cities. These capabilities look across multiple data sets and 
        increase the probability of detecting illicit activity. They 
        led to new insights and investigations and raised ICE's profile 
        within the counter- proliferation community, creating 
        collaboration opportunities with other agencies and partner 
        countries.
  --For first responders in fiscal year 2015, S&T licensed the Radio 
        Internet-Protocol Communications Module (RIC-M) to two 
        commercial partners to manufacture and sell in commercial 
        markets. RIC-M as a low-cost interoperability solution that 
        allows agencies to incrementally upgrade and affordably connect 
        legacy systems with newer ones, averting a costly need to 
        refresh entire systems at once and saving the first responder 
        community millions of dollars. S&T was awarded a patent for the 
        RIC-M technology and received its first royalties from RIC-M 
        sales (seven percent of each sale made). The S&T-developed 
        Finding Individuals for Disaster and Emergency Response 
        (FINDER) technology also saw real-world operational use in the 
        April 2015 Nepal earthquake response where it helped save 
        multiple victims trapped beneath collapsed structures.
  --In fiscal year 2015, S&T continued progress on the Integrated 
        Maritime Domain Enterprise- Coastal Surveillance System (IMDE-
        CSS) Program for port and coastal surveillance for CBP and 
        USCG. A Chesapeake node integrated with Maryland State and 
        local law enforcement was linked to the original, operational 
        Air and Marine Operations Center IMDE-CSS node in Riverside, 
        CA. S&T continues to take major steps with its partners in USCG 
        and CBP toward a functional, integrated system for situational 
        awareness across all Federal, state, local, tribal, 
        territorial, and even private sector assets.
  --S&T's ten university-based Centers of Excellence continue to 
        deliver capabilities to homeland security end users. USCG, 
        which continues to be one of the strongest supporters and 
        beneficiaries of the Centers, received a Social Media Analytics 
        and Reporting Toolkit (SMART, which helps alert to emerging 
        threats in a geographically- focused stream of social media 
        during major events) and a new, more sophisticated version of 
        the Boat Allocation Module (BAM II, which helps save resources 
        and deploy more effectively across stations). FEMA received the 
        now-operational Risk Estimator for Embankment Structures to 
        assess and maintain levees and dams to prevent failure during 
        future storms.
  --TSA received S&T-developed systems in fiscal year 2015 that will 
        aid implementation of classroom-based training in visual search 
        and detection training and cross-gender empathy through 
        appropriate hand placement and position. S&T also delivered 
        vulnerability assessments of suicide bombers in commercial 
        aircraft to inform in-flight emergency protocols for response 
        and mitigation, and S&T's explosives detection canine program 
        transitioned an S&T-developed non-detonable training aid that 
        is considerably more affordable and effective than previous 
        methodology at improving canine detection proficiency.
  --FEMA purchased 10,000 device license subscriptions for MobileIron, 
        effectively covering its entire inventory of working mobile 
        devices and making MobileIron its solution of choice moving 
        forward. MobileIron is a mobile configuration manager that 
        improves policy enforcement and assists enterprise users in 
        keeping their mixed-use mobile devices secure. S&T enhanced and 
        delivered the product as part of an In-Q-Tel collaboration.
  --In fiscal year 2015, S&T's Transition to Practice piloted, 
        transitioned, or licensed five cybersecurity technologies to 
        the marketplace. These are federally-funded tools and 
        technologies that S&T is converting from laboratory tools to 
        commercially-available products that will be used to strengthen 
        our networks. S&T also continues to provide cybersecurity tools 
        to law enforcement and delivered three tools last year that 
        ensure computer incident evidence integrity, protect records 
        from illicit access or modification, and verify physical 
        location of law enforcement network-enabled mobile devices.
  --In addition to technology development for Components, S&T also 
        supports the Department's efforts to improve and integrate 
        internal processes. In fiscal year 2015, S&T provided technical 
        staff and support to the Joint Requirements Council (JRC) that 
        included assistance with process development and technical 
        subject matter expertise reach back for the JRC's Portfolio 
        Teams. S&T also re-established the Department's Integrated 
        Product Team process to coordinate the Department's R&D and 
        began a process for technical assessments of DHS major 
        acquisitions to increase integration of acquisition and R&D 
        activities.
  --During the Ebola response in fiscal year 2015, S&T directed 
        research at its National Biodefense Analysis and 
        Countermeasures Center (NBACC) laboratory to determine the 
        stability of Ebola in blood and other body fluids under 
        relevant environmental conditions and surfaces including 
        personal protective equipment and airline carpet. This effort, 
        along with previous research on Ebola virus, was adopted by the 
        White House's Ebola Task Force and influenced the approach and 
        procedures of multiple Federal agencies during the response. 
        USCG is also using the information to update its operational 
        protocols for decontamination of Ebola-contaminated surfaces.
  --S&T provided technical assistance to the Secret Service during the 
        Pope Francis's September 2015 visit. S&T's Modeling and 
        Simulation Engine generated technical oversight for crowd 
        ingress, egress, and emergency evacuation during the Pope's 
        visit including the outdoor mass at the Basilica of the 
        National Shrine of the Immaculate Conception and surrounding 
        areas. S&T's models enabled informed adjustments to congestion 
        and bottlenecks for evacuation planning and resource 
        positioning for the events.
    I thank you again for your support and for the opportunity to 
testify before the Committee today on R&D in the Department and S&T's 
fiscal year 2017 budget. I look forward to your questions.

    Senator Hoeven. Thank you, Under Secretary.
    Now, Dr. Brinsfield.

                        OFFICE OF HEALTH AFFAIRS

STATEMENT OF DR. KATHRYN BRINSFIELD, ASSISTANT 
            SECRETARY AND CHIEF MEDICAL OFFICER
    Dr. Brinsfield. Thank you, sir. Chairman Hoeven, Ranking 
Member Shaheen, and distinguished members of the subcommittee, 
I appreciate the opportunity to testify before you today 
regarding the Department of Homeland Security's Office of 
Health Affairs, or OHA.
    Major threats to our Nation's security, such as terrorist 
attacks, natural disasters, and pandemics have profound impacts 
on public health. I will focus my remarks on how OHA works to 
mitigate the public health impacts of biological attacks, 
chemical threats, diseases and disasters, to help prepare the 
Nation to respond and rebound. I will also explain the 
importance of our expertise that supports DHS frontline 
operations, our work force, and the preparedness of public 
health and medical communities.
    We are a crucial link between health security and homeland 
security. Our success is the integration of local public health 
with emergency management, law enforcement, and intelligence 
community partners.
    As an example, as part of DHS and FBI's Nationwide 
Suspicious Activity Reporting Initiative, OHA developed a 
training program for health professionals to highlight the 
critical role they play in identifying and reporting suspicious 
activities.
    OHA led the development of Federal guidance to help first 
responders manage injuries and save lives during an improvised 
explosive device or active shooter event. We are building on 
that work with Stop the Bleed, a campaign to educate Americans 
on actions they can take to control life-threatening bleeding 
before medical first responders arrive on the scene.
    Like responders nationwide, DHS components also routinely 
confront health and medical challenges while conducting their 
critical missions. As part of our support to DHS operational 
components, OHA manages a unified emergency medical services 
(EMS) system for the Department's more than 3,000 emergency 
medical technicians (EMTs) and paramedics, and ensures the care 
they provide is aligned with national standards and consistent 
across the Department.
    OHA programs also improve our Nation's ability to respond 
to the health impacts of chemical, biological, radiological, 
nuclear, and explosive incidents, or CBRNE.
    These capabilities require ongoing research and 
development. Our role in the R&D process is to set 
requirements, coordinate input from State and local partners, 
and participate with the interagency on research priorities. 
This engagement is critical to addressing emerging threats.
    We have all seen the news reports about ISIS's use of 
chemicals as weapons. We also know that they desire to attack 
and inspire attacks in the United States.
    The most appreciable Federal impact in the immediate 
aftermath of a chemical attack will be made long before the 
incident occurs by focusing on ensuring communities are 
prepared to respond effectively in the first hours. OHA's 
chemical defense program develops guidance and tools to help 
U.S. communities and decisionmakers at all levels of government 
prepare for, respond to, and quickly recover from terrorist 
attacks and accidents involving toxic chemicals.
    OHA also aims to improve decisionmaking about high-
consequence biological threats by providing early detection and 
surveillance capabilities. For large-scale biological events, 
early knowledge will allow informed decisions that can save 
American lives.
    The BioWatch program provides Federal, State, and local 
leaders with actionable information on detection of a 
biological event to enable a coordinated and effective 
response.
    One important and frequently overlooked benefit of the 
BioWatch program is our work in each jurisdiction to ensure 
that local decision makers are familiar with how the response 
will unfold, should the detection of one of these agents 
happen. There is no other program that provides this layer of 
biological defense.
    OHA and S&T are collaborating on enhancements to BioWatch 
that would shorten the time to detect biological agents as well 
as address other short- and long-term capability needs.
    OHA also co-chairs S&T's biothreat IPT to identify and 
prioritize future needs in biodefense.
    Naturally occurring biological threats can also greatly 
impact homeland security, as evidenced by the 2014 Ebola 
outbreak. As chief medical officer of the Department, I led the 
coordination of DHS's efforts as part of the whole-of-
government response. OHA issued health advisories to help 
protect the DHS work force and engaged Customs and Border 
Protection (CBP) and the Coast Guard daily to ensure protective 
actions were in place so critical border security operations of 
the Department would continue unencumbered. Our medical 
professionals traveled to airports that conducted enhanced 
entry screening to provide advice on how to complement Ebola 
screening, as well as training to DHS employees on the proper 
use of personal protective equipment.
    Further, our National Biosurveillance Integration Center, 
or NBIC, provided daily updates on the evolving nature of the 
Ebola outbreak to more than 1,500 Federal, State, and local 
officials, and collaborated with interagency partners on issues 
such as potential routes of transmission.
    Today, we continue to build upon lessons learned from the 
responses to Ebola and other biological threats as we tackle 
the reemergence of viruses like Zika.
    Thank you for your time. I appreciate the attention this 
subcommittee has given to OHA's mission, and I look forward to 
your questions.
    [The statement follows:]
              Prepared Statement of Kathryn H. Brinsfield
    Chairman Hoeven, Ranking Member Shaheen, and Members of the 
Subcommittee, thank you for the opportunity to testify before you today 
regarding the Office of Health Affairs (OHA) and how our fiscal year 
2017 budget request will allow us to further our health and homeland 
security missions.
    Major threats to our Nation's security, such as terrorist attacks, 
natural disasters, or pandemics, have profound impacts on public 
health. The Department of Homeland Security (DHS) Office of Health 
Affairs leads the Department's efforts to meet those health security 
threats our nation faces today and prepare for the threats that will 
emerge tomorrow.
    To us, the protection of our population is core to our mission and 
central to everything we do. With in-house experts including 
physicians, nurses, scientists, toxicologists, veterinarians, 
intelligence and data analysts, emergency management planners, and 
first responders, OHA is uniquely positioned at the intersection of 
public health and national security to help DHS and government leaders 
prepare for, respond to, and recover from the public health 
consequences of terrorist threats and other hazards.
    OHA experts identify health and medical risks and vulnerabilities, 
evaluate protective actions, and understand the decisions and resources 
needed to effectively respond to the health impacts of terrorist 
attacks, large-scale disasters, and chemical and biological incidents--
whether natural or intentional. We share this expertise with Federal 
agencies and state and local governments, to build tools, guidance, and 
relationships, which improve the ability of responders at all levels to 
coordinate and work together more effectively during a crisis.
    OHA leveraged our vast expertise in support of the DHS mission to 
protect and secure the homeland during the 2014 Ebola outbreak. As part 
of the whole-of-government response, OHA led coordination of DHS's 
Ebola response activities, which included working closely with 
Departmental components, Federal interagency partners, and various 
state and local stakeholders. These efforts were instrumental in 
protecting the DHS workforce, the traveling public, and our Nation from 
this terrible outbreak. Today, we continue to build upon lessons 
learned from the responses to Ebola and other biological threats as we 
tackle the emergence--or reemergence--of viruses like Zika or Lassa 
Fever.
    OHA currently addresses the health impacts of these incidents and 
how they impact homeland security from an integrated perspective, using 
both technical expertise and workforce health knowledge. OHA does not, 
however, conduct research and development. OHA works with the DHS 
Science and Technology Directorate to identify priority capability gaps 
in the Department's health security and chemical and biological mission 
spaces, and provides feedback to jointly assess challenges and 
prioritize solutions to fill those gaps.
    The President's budget request for fiscal year 2017 will support 
continued and improved capabilities in these areas. In fiscal year 
2017, the OHA programs and contributions discussed below are proposed 
to be included in a new Chemical, Biological, Radiological, Nuclear and 
Explosives Office. The fiscal year 2017 request will allow continued 
coordination and maintenance of DHS-wide chemical, biological, and 
emerging infectious disease-related strategy, policy, situational 
awareness, periodic threat and risk assessments, and contingency 
planning. The fiscal year 2017 request also supports our workforce 
health protection and Component operational resilience efforts.
    OHA brings a very particular, extremely important set of skills and 
knowledge to our Nation's health security framework. We provide crucial 
links between homeland security components, public health communities, 
and interagency partners. We help the Nation prepare for, respond to, 
and recover from health impacts of homeland security threats, and we 
develop expert guidance and policy for the spectrum of medical and 
public health security issues. This unique contribution makes OHA 
indispensable to our Nation's security. OHA's programs and budget cost 
drivers are discussed below.
Chemical Defense
    The Chemical Defense Program (CDP) is comprised of experts in 
medical toxicology, emergency medicine, industrial hygiene and public 
health who advise DHS and government leaders about chemical threats and 
the potential policy and planning consequences. CDP develops guidance 
and tools to help communities and decision-makers prepare for, respond 
to, and recover from terrorist attacks and accidents involving chemical 
agents. CDP provides extensive support at an extreme value, leveraging 
partners and resources to improve capabilities.
    In 2014, CDP, in partnership with the Department of Health and 
Human Services and at the direction of the White House, released a 
guidance document to assist emergency planners and public health 
officials assess the medical resources needed to respond to mass 
casualties from a catastrophic chemical incident.
    The Program has also worked directly with localities to conduct 
demonstration projects aimed at developing best practices for 
responding to chemical incidents in specific venues, such as mass 
transit, ports, and stadiums. In fiscal year 2014, CDP completed its 
first demonstration project and began development of exercises in four 
more venues and cities, which were all completed by the end of CY 2015. 
CDP is now developing a final report consolidating the identified 
lessons learned from the five venues and cities.
    Fiscal year 2017 funding will allow CDP to continue working with 
communities to enhance their chemical defense capabilities by 
developing guidance tools and implementing the best practices and 
lessons learned from demonstration projects.
    CDP experts will also continue to provide medical toxicology and 
chemical defense expertise to DHS and Component leadership and Federal 
government partners.
Biological Detection and Surveillance
    Detection and defense against biological threats, be they acts of 
terrorism or naturally occurring, remain important mission areas for 
DHS. For large scale biological events, knowledge as early as possible 
allows informed decisions that can save American lives. To this end, 
the Department's operational biodetection and biosurveillance programs, 
the BioWatch Program and the National Biosurveillance Integration 
Center (NBIC), are critical to our Nation's biodefense. The 
capabilities are mutually reinforcing--one provides detection of 
selected threats at their onset in high risk areas while the other 
provides public health surveillance at a broader level at later stages. 
Each capability is supported by a biodefense R&D portfolio in the 
Science and Technology Directorate dedicated to creating technology 
options that address identified and validated capability gaps. R&D 
helps the Department maintains a longer-range view and ensures 
operational elements are not caught off guard by emerging or new trends 
and threats.
    The BioWatch Program is the Nation's only civilian program that 
provides early warning in the event of an aerosolized biological 
attack. The program consists of planning, preparedness, exercising, 
training, and early detection capabilities. Deployed at more than 30 
major metropolitan areas throughout the country, the system is a 
collaborative effort of health professionals at all levels of 
government. The program is operated by a team comprised of field 
operators, laboratory technicians, and public health officials from 
city, county, state, and Federal organizations. Each hour gained 
through early detection and before the onset of medical symptoms, 
improves the chances that response efforts will be successful.
    The BioWatch Program has succeeded in bringing together state and 
local public health, first responders, and law enforcement personnel, 
along with locally-deployed Federal officials, resulting in communities 
that are better prepared not only for a biological attack, but also for 
an all-hazards response.
    The current system has been, and will continue to be, extensively 
tested, and the program is advancing plans and building capabilities in 
early detection and situational awareness. BioWatch builds the 
collective capabilities across all levels of government to effectively 
and rapidly mobilize in response to an attack, mitigating the impacts 
of a catastrophic bioterrorism event. The BioWatch Program is a 
critical component of our Nation's response to minimize the impacts of 
a biological attack.
    The relevant technical capabilities available to adversaries have 
only increased since the system's inception in 2003, as biotechnologies 
have continued their global development and dissemination. So the need 
for BioWatch persists. In the past 2 years, the capabilities of the 
system have been independently tested and validated. Four independent 
tests have been conducted over the last 6 years that have tested all 
components of the BioWatch system. This has included extensive testing 
of our identification assays (laboratory tests that detect selected 
biological agents), subsystem and system level testing in test chambers 
using actual threat agents, and open-air testing of simulated agents in 
as near an operational environment as possible. In addition, the 
BioWatch Quality Assurance Program has analyzed over 30,400 samples to 
monitor operations against performance benchmarks and requirements. The 
results of these tests reinforce confidence in the system's ability to 
achieve its mission: detecting a large-scale aerosol release of 
specific threat agents in our Nation's most populated areas.
    The system's capability to detect biological agents was further 
affirmed last year when BioWatch detected the subtype of Francisella 
tularensis that is pathogenic to humans during confirmed occurrences of 
that strain of Tularemia in Denver, Colorado. Though the agent was not 
disseminated by an adversary, these detections took place during a 
documented uptick in naturally occurring disease. By analyzing 
available medical surveillance data and discussing the BioWatch 
detections through the BioWatch National Conference Call, local, state, 
and Federal officials were provided with additional data for decision 
support in responding to this occurrence of Tularemia. This shows that 
the BioWatch Program is able to detect an airborne biological agent in 
the environment.
    The BioWatch Program is more than just an environmental detection 
system. BioWatch also helps strengthen jurisdictional preparedness in 
the event of a bioterrorism event through coordinating exercises and 
drills; providing training, guidance and assessments, and standardized 
methodologies for response; and by enabling a forum for all levels of 
government to share data and information. Over 500 state and local 
partners and stakeholders representing a broad cross section of 
government agencies have participated in BioWatch preparedness 
activities in the last year. BioWatch has also coordinated 
environmental assessment activities, including developing initial 
environmental sampling plans for jurisdictions to help characterize an 
attack. All of the program's key elements--including response--are 
supported by a number of Federal departments and agencies, such as the 
Department of Health and Human Services (HHS) including the Centers for 
Disease Control and Prevention (CDC), Department of Defense (DoD), 
Environmental Protection Agency, and Federal Bureau of Investigation. 
BioWatch also supports major events such as Super Bowls and National 
Special Security Events (e.g., 2015 papal visit to three U.S. cities).
    Since 2014, BioWatch has been working with DHS S&T, DoD, and other 
Federal partners to identify technologies that would substantially 
improve BioWatch operations. These improvements are intended to advance 
the current ``detect to treat'' capability, which will enable us to 
deploy medical countermeasures before the affected population is 
symptomatic. Additionally, BioWatch and the National Biosurveillance 
Integration Center are working together to improve situational 
awareness at all levels of government in the event of a biological 
attack.
    Given the evolving threats that our Nation faces, both manmade and 
natural, greater coordination among Federal, state, local, tribal, and 
territorial partners is required. The National Biosurveillance 
Integration Center, or NBIC, is uniquely situated within DHS to provide 
a fusion of human health, animal health, and environmental data to 
develop a comprehensive understanding of the biological threat 
landscape and emerging incidents to ensure our Nation's decision-makers 
have timely, accurate, and actionable information.
    Established in 2004 and transitioned to OHA in 2007, NBIC's mission 
is to enable early warning and shared situational awareness of acute 
biological events and support better decisions through rapid 
identification, characterization, localization, and tracking for 
biological events of national significance. To accomplish this, NBIC 
monitors thousands of data sources and leverages the expertise of 
fourteen Federal departments and agencies, then integrates this array 
of information into reports on global and national biological incidents 
that could potentially cause economic damage, social disruption, or 
loss of life. Over 900 Federal and 1,500 state, local, tribal, and 
territorial offices across this spectrum of human, animal, and 
environmental health and response have access to NBIC's reports and 
analysis.
    We are cognizant that reports by the Government Accountability 
Office and the Blue Ribbon Panel on Biodefense have acknowledged the 
progress that NBIC has made delivering daily situational awareness to 
our partners, but have pointed out that we still have work to do to 
fully realize the vision of comprehensive biosurveillance integration. 
Towards this end, NBIC is working with the Department of Veterans 
Affairs on a data initiative that will help to create an aggregated 
national view of disease trends, while also facilitating understanding 
of those trends in our veteran population. Similarly, NBIC is working 
with DoD's Defense Threat Reduction Agency to deploy new collaboration 
and analytic tools that will enable biosurveillance analysts from 
across the government to collaboratively examine and report on emerging 
biological threats. NBIC's efforts are also focused on biosurveillance 
tools and reporting for local officials so that they can address the 
biological incidents emerging in their own communities, while 
strengthening national surveillance as a whole. NBIC will continue to 
advance its capacity to conduct biosurveillance reporting and analysis 
by developing new collaboration tools, pursuing innovative data sources 
and methods, and fostering greater stakeholder engagement.
    Requested fiscal year 2017 funding for the Department's biological 
detection and surveillance activities will enable OHA to continue 
biodetection operations and training in major metropolitan areas, 
pursue needed technological advances, and facilitate greater 
collaboration with Federal partners to improve the quality of national 
biosurveillance analysis and reporting.
Health and Emerging Infectious Diseases
    The Department's workforce health protection and emerging 
infectious disease programs build connections between current and 
emerging health and medical issues. Our highly skilled health and 
medical experts help improve DHS planning for CBRNE threats, as well as 
provide expertise on medical and health issues impacting the DHS 
workforce and those under DHS care and custody.
    OHA emergency medical services (EMS) experts are focused on 
improving the Nation's ability to prepare for, respond to, and recover 
from a terrorist attack, natural disaster, or other catastrophic 
emergency. We achieve this by collaborating with national organizations 
and government entities to help identify EMS system needs and possible 
solutions, engaging stakeholders nationwide, and managing an EMS system 
for DHS.
    As an example, in 2015, OHA led the development of Federal guidance 
to help first responders save lives during an improvised explosive 
device or active shooter event. The guidance, First Responder Guidance 
for Improving Survivability in Improvised Explosive Device and/or 
Active Shooter Incidents, translates evidence-based response strategies 
from the U.S. military's vast experience in responding to and managing 
casualties from IED and/or active shooter incidents into the civilian 
first responder environment.
    Currently, OHA is working with the White House on Stop the Bleed, a 
campaign to educate Americans on how to control life-threatening 
bleeding before emergency medical care arrives. Stop the Bleed was born 
out of recommendations from the National Security Council's Bystander 
Working Group, and was launched on October 6, 2015, at a White House 
stakeholder event. The Bystander Working Group was composed of both 
public and private sector entities. DHS is coordinating external 
communications for the initiative and advising on training curriculum 
content for bystander courses under development by Federal and 
nongovernmental organizations.
    OHA will use fiscal year 2017 resources to continue its support for 
state, local, and DHS EMS systems, complete the replacement of a new 
electronic patient care record system for DHS EMS providers, and 
support a voluntary first responder anthrax vaccine pilot initiative.
    OHA's health security intelligence enterprise integrates public 
health with law enforcement and intelligence community partners, 
including at state and local fusion centers and by facilitating 
clearances for public health stakeholders. OHA recently launched a 
nationwide suspicious activity reporting training program for health 
professionals to assist in understanding the critical role they can 
play in identifying and reporting suspicious activities. With requested 
fiscal year 2017 funding, we will continue to connect these worlds and 
strengthen the relationship between health and security to enhance 
preparedness efforts.
    Finally, the DHS mission depends entirely on its greatest asset--
the men and women of the Department who are responsible for keeping our 
Nation safe. OHA plays a key role in maintaining a healthy and 
resilient DHS workforce by anticipating occupational health threats and 
providing expert medical guidance to DHS and component leadership on 
medical and health issues impacting the DHS workforce. One aspect of 
this is the Department's Medical Countermeasures Program, which helps 
protect DHS workers from biological threats so that they can continue 
securing the homeland during a biological event. fiscal year 2017 
funding will allow current occupational health activities to continue, 
including peer-support and stress management programs to enhance 
employee resilience and suicide prevention.
Conclusion
    In summary, requested fiscal year 2017 funding will enable OHA to 
continue working to enhance the Homeland's health security capabilities 
by developing guidance tools and implementing best practices; 
strengthen the Nation's ability to anticipate, prevent, characterize, 
and respond to chemical or biological incidents; and continue providing 
the analyses, assessments, and surveillance data needed to inform and 
guide Federal, state, and local decisionmaking regarding the health and 
medical consequences of homeland security incidents.

    Senator Hoeven. Thank you.
    And now, Director Gowadia.
STATEMENT OF DR. HUBAN GOWADIA, DIRECTOR
    Dr. Gowadia. Good afternoon, Chairman Hoeven, Ranking 
Member Shaheen, and Senator Tester. Thank you for the 
invitation to testify with my colleagues from the Department of 
Homeland Security in support of the President's 2017 budget 
request.
    The request includes almost $152 million in the new common 
appropriations structure, research and development to defend 
the homeland against the threat of nuclear terrorism. This 
appropriation supports transformational applied research, 
detection capability and assessments, as well as nuclear 
forensics.

                   DOMESTIC NUCLEAR DETECTION OFFICE

    At DNDO, our singular focus is preventing nuclear 
terrorism. We are charged with and committed to advancing our 
Nation's technological edge to deter and defeat sophisticated 
and agile adversaries against this threat.
    In this endeavor, we are responsible by presidential 
directive and congressional mandate for conducting an 
aggressive transformational program of research and development 
to generate and improve technologies to detect nuclear and 
other radioactive materials that are out of regulatory control. 
We are also tasked with advancing technologies to facilitate 
the rapid and accurate attribution of the source of interdicted 
nuclear materials.
    DNDO by design applies a holistic end-to-end approach to 
countering nuclear terrorism, beginning with a comprehensive 
understanding of the threat.
    By integrating annual assessments of capabilities gaps and 
technology maturity with operational requirements, we are able 
to appropriately balance our resource allocations to develop 
material and nonmaterial solutions. We are authorized to 
conduct research, develop and test evaluation, and acquire 
radiation detectors for use by DHS operational components, such 
as CBP, Coast Guard, and TSA.
    The President's 2017 budget request includes $104 million 
for acquisition of nuclear detection systems for the Department 
of Homeland Security.
    The key to executing this end-to-end approach is DNDO's 
solution development process. It is our mechanism for managing 
programs in compliance with DHS acquisition policy and 
processes set forth by the Department's joint requirements 
council.
    DNDO's process incorporates best practices for lifecycle 
management acquisition programs and ensures the continuous 
involvement of all operational partners.
    When a new technology is deemed necessary to resolve a 
capability need, we engage with partners across the R&D 
community, including our Federal agencies, Department of 
Energy's national laboratories, academia, industry, and 
international partners. These collaborations allow us to 
leverage developments from across the science and technology 
community and minimize redundant efforts.
    Our strategy is to fund early research to lower the 
technical risk and deliver mature proofs of concept to 
industry, enabling their investments in engineering development 
to deliver acquisition-ready products. Industry is thereby able 
to rapidly develop and improve technologies, and we are able to 
stimulate innovation for the nuclear detection mission.
    Because DNDO is authorized and appropriated to take a 
comprehensive approach to this challenging mission, from threat 
analysis to systems acquisition, we are able to seamlessly 
transition technologies from bench to field for operational 
use, and thereby provide best value for Federal resources.
    For example, DNDO led the development of the next-
generation radioisotope identification device. Working closely 
with our partners, we identified key operational requirements 
that drove the new system design. Based on an enhanced 
detection material and improved algorithms, this new technology 
is easy to use, lightweight, and more reliable. Because it has 
built-in collaboration and diagnostics, it has much lower 
annual maintenance costs.
    We are also seeing progress with R&D projects in nuclear 
forensics. For instance, DNDO recently completed the 
development of laboratory-scale plutonium and uranium 
processing capabilities that will allow us to generate nuclear 
forensics signatures and understand the link between material 
characteristics and the originating production process.
    It is essential that we are able to identify the origin of 
these special nuclear materials to support the United States 
Government's commitment to hold accountable anyone that enables 
terrorists to obtain or use such weapons of mass destruction.
    Despite significant progress, our enduring technical grand 
challenges remain and require sustained investment. We need 
cost-effective equipment with sufficient technical performance 
to ensure widespread deployment. We need next-generation 
technologies to search wide areas and capabilities for 
radiation scanning in challenging pathways, such as between 
ports of entry along our land and sea borders.
    We also need technologies that can detect special nuclear 
material that is shielded, and enhanced technologies to rapidly 
and accurately determine the provenance of seized materials.
    So the President's 2017 budget request includes investments 
in R&D to bring to bear technologies and innovation to further 
the Nation's nuclear detection and forensics capabilities.
    Thank you for your sustained and strong support for the 
Department of Homeland Security efforts to counter nuclear 
terrorism.
    [The statement follows:]
                 Prepared Statement of Huban A. Gowadia
    Chairman Hoeven, Ranking Member Shaheen, and distinguished Members 
of the Subcommittee, I am honored to appear before you today to testify 
with my esteemed colleagues from the U.S. Department of Homeland 
Security (DHS) in support of the President's fiscal year (FY) 2017 
Budget. The President's budget request includes $151.6 million for 
research and development (R&D) to defend the Homeland against the 
threat of radiological and nuclear terrorism. The Domestic Nuclear 
Detection Office (DNDO) is charged with and is committed to advancing 
our Nation's technological edge to defeat sophisticated and agile 
adversaries against this threat, principally through nuclear detection 
and technical nuclear forensics.
    My testimony today will center on the President's fiscal year 2017 
budget request for R&D under DNDO's purview, as well as the process by 
which we carry out these functions. It will also highlight recent 
accomplishments attributable to our current R&D model.
    Three themes underpin my testimony. First, our R&D successes are 
the result of our end-to-end approach that enables a thorough 
understanding of the threat, operational issues, and available 
technologies. Second, healthy collaboration with the user community and 
research partners enables the exchange of information essential to make 
progress. Third, while we have our share of technical expertise, the 
critical mass of technical capability resides in our national 
laboratories, academia, and industry, and we have focused a great deal 
of our efforts to sustain the technical expertise for future advances.
                        mission and authorities
    As stated in the President's National Security Strategy, ``No 
threat poses as grave a danger to our security and well-being as the 
potential use of nuclear weapons and materials by irresponsible states 
or terrorists.'' The potentially catastrophic effects of a nuclear 
detonation, whether executed by a state or a non-state actor, would 
have far-reaching impacts on our Nation and the world.
    Recognizing the grave threat of nuclear terrorism, DNDO was 
established in 2005 via National Security Presidential Directive 
(NSPD)-43/Homeland Security Presidential Directive (HSPD)-14 and 
subsequently authorized via the Security and Accountability For Every 
(SAFE) Port Act of 2006 (Public Law 109-347) to ``serve as the primary 
entity of the United States Government to further develop, acquire, and 
support the deployment of an enhanced domestic system to detect and 
report on attempts to import, possess, store, transport, develop, or 
use an unauthorized nuclear explosive device, fissile material, or 
radiological material in the United States, and improve that system 
over time.'' The National Technical Nuclear Forensics Center was 
established within DNDO in 2006 by NSPD-17/HSPD-4 and was authorized by 
the 2010 Nuclear Forensics and Attribution Act (Public Law 111-140) to 
``ensure an enduring national technical nuclear forensics capability to 
strengthen the collective response of the United States to nuclear 
terrorism or other nuclear attacks.'' DNDO is responsible for 
conducting an aggressive, expedited, evolutionary, and transformational 
program of R&D to generate and improve technologies to detect and 
prevent the illicit entry, transport, assembly, or potential use within 
the United States of a nuclear explosive device or fissile or 
radioactive material. DNDO is also responsible for advancing 
technologies to accurately and rapidly attribute the source of 
interdicted nuclear materials.
    DNDO's R&D efforts cover four mission areas: Transformational R&D, 
Nuclear Forensics, Detection Capability Development, and Detection 
Capability Assessment.
                          transformational r&d
    Within Transformational R&D, DNDO manages four programs spanning 
basic research, applied research, and technology development:
  --Advancing the fundamental knowledge in nuclear detection and 
        forensics, the Academic Research Initiative (ARI) focuses on 
        basic and early applied R&D to address key challenges and at 
        the same time educate the next generation of scientists and 
        engineers. The President's fiscal year 2017 request for the 
        initiative is $11.8M and will include such work as transferring 
        large solid state and no-power neutron detectors necessary for 
        detecting nuclear material such as plutonium to industry 
        partners for covert and extended life operations. Additionally, 
        the budget request for the program will continue to support 
        over 100 students at over 30 universities.
  --Assessing the feasibility of promising R&D concepts, the 
        Exploratory Research Program (ER) focuses on later applied R&D 
        through laboratory proof-of-concept demonstrations. The budget 
        request for the program in fiscal year 2017 is $26.1M and will 
        include work such as the demonstration of compact and 
        inexpensive betatron x-ray sources to enable highly mobile non-
        intrusive inspection systems to detect shielded threats.
  --Building on R&D concepts previously demonstrated under the ER or 
        other R&D efforts, the Advanced Technology Demonstration 
        Program (ATD) further develops these technologies and 
        characterizes them in a simulated or controlled operational 
        environment to assess performance and operational utility. The 
        President's fiscal year 2017 request is $24.1M for the Advanced 
        Technology Demonstration program and will include work such as 
        the operational assessment of a machine learning algorithm to 
        further reduce nuisance alarms in radiation portal monitors.
  --The purpose of the Small Business Innovation Research Program 
        (SBIR) is to stimulate technological innovation by 
        strengthening the role of innovative small business concerns in 
        federally funded R&D. The program has been successful in 
        transitioning near-term solutions into commercial products or 
        services, such as the development of a fast neutron detector 
        material called stilbene. In fiscal year 2017, the program will 
        support 13 projects, which will include transitioning thallium 
        bromide detectors for radiation pagers to a proof-of-concept.
    The portfolios include materials development and supporting 
technology, radiation detection techniques, shielded threat detection, 
advanced analytics, and nuclear forensics. The President's fiscal year 
2017 budget request for Transformational R&D is $64.8M.
                           nuclear forensics
    DNDO's Nuclear Forensics portfolio is organized into three mission 
areas: operational readiness, technology advancement, and nuclear 
forensics expertise development. The fiscal year 2017 request for 
Nuclear Forensics is $20.6M and includes programs such as:
  --The Technology Advancement Program benchmarks and advances 
        forensics methodologies to provide well-understood results and 
        develops signatures and data evaluation tools to support 
        attribution assessments. These methods and signatures are 
        provided to operators in the Federal Bureau of Investigation, 
        Department of Defense, Department of Energy, and intelligence 
        community. The President's fiscal year 2017 request is $9.6M 
        for the Technology Advancement Program and will include such 
        work as the operation of laboratory-scale processing 
        capabilities that produce uranium and plutonium materials for 
        forensics signatures.
  --The National Nuclear Forensics Expertise Development Program 
        addresses the enduring challenge of sustaining a preeminent 
        workforce of scientists and engineers in nuclear forensics-
        related specialties. The program consists of Graduate 
        Fellowships, Post-Doc Fellowships, Summer Internships, a 
        Nuclear Forensics Research Award, and an Early-Career Award. 
        The President's fiscal year 2017 request of $5.0M will support 
        a total of 39 awards.
                    detection capability development
    DNDO's Detection Capability Development portfolio addresses the 
development of technical solutions for detecting nuclear and other 
radioactive material in various operational environments and along 
challenging pathways. The following programs are among the activities 
of Detection Capability Development, for which the President has 
requested $21.5M:
  --The International Rail Program (IRAIL) analyzes options, develops a 
        programmatic approach for implementing solutions, and generates 
        requirements and solutions for detecting and identifying 
        illicit nuclear or other radioactive materials entering the 
        United States via freight rail cargo through the 31 ports of 
        entry identified in the Trade Act of 2002 (Public Law 107--
        210). The President's fiscal year 2017 request is $3.1M and 
        will support activities for detection solutions for freight 
        rail cargo.
  --The Aerial Detection Program seeks to provide a capability via an 
        aircraft-borne detection system during intelligence-driven 
        operations to detect and intercept nuclear and other 
        radioactive threats at distances far removed from major 
        population centers and critical infrastructure, and with faster 
        response times than interdictions made via boats and cutters. 
        The President's fiscal year 2017 request of $3.1M will include 
        system development activities to determine operational 
        effectiveness and suitability of currently-available commercial 
        products.
                    detection capability assessments
    DNDO's Detection Capability Assessments portfolio supports the R&D 
and acquisition process for mission-related capabilities. The 
President's request for fiscal year 2017 for Detection Capability 
Assessments is $44.7M, and the following programs are a subset of those 
activities:
  --The Test and Evaluation Program conducts rigorous assessment of 
        radiological and nuclear detection capabilities to inform 
        acquisition decisions and to develop and implement effective 
        concepts of operation. The President's fiscal year 2017 request 
        of $17.8M will include the planning, execution, and reporting 
        of 11 test campaigns.
  --The Studies and Infrastructure Program objectively assesses the 
        effectiveness and performance of global nuclear detection 
        architecture programs and processes. The program also supports 
        the development and maintenance of radiological and nuclear 
        detection standards and associated conformity testing. The 
        President's fiscal year 2017 request is $9.4M and will include 
        work such as the publication of advanced radiography and aerial 
        radiation detection technical capability standards.
  --The Operational Readiness Assessments Program evaluates deployed 
        systems and operations as well as the performance of detection 
        technologies in operationally-relevant and controlled 
        environments. The President's fiscal year 2017 request of $8.6M 
        will include work such as piloting a computer application that 
        analyzes radiation portal monitor scans for reducing nuisance 
        alarms, simplifying alarm adjudication, and increasing threat 
        sensitivity.
                           strategic approach
    To successfully detect, interdict, and conduct nuclear forensics on 
nuclear and other radioactive material, it is essential that we rely on 
the critical triad of intelligence, law enforcement, and technology. To 
maximize the Nation's ability to detect and interdict a threat, it is 
imperative that we apply detection technologies in operations that are 
driven by intelligence indicators, and place them in the hands of well-
trained law enforcement and public safety officials. Similarly, to 
enhance attribution capabilities, the U.S. Government (USG) must ensure 
that information from intelligence, law enforcement, and technical 
nuclear forensics is synthesized to identify the origin of the material 
or device and the perpetrators.
    Addressing the threat of nuclear terrorism requires a whole-of-
government approach, with partners at all levels of government. At the 
Federal level, U.S. Customs & Border Protection (CBP), U.S. Coast Guard 
(USCG), and the Transportation Security Administration play a critical 
role in countering nuclear threats at our borders, in aviation and 
maritime environments, and in our domestic transportation system. 
Similarly, at the state and local level, law enforcement and public 
safety partners are essential to the detection and interdiction of 
nuclear threats in their areas of operation and jurisdiction. DNDO aims 
to dramatically evolve nuclear detection and technical nuclear 
forensics capabilities and to further reduce the cost of advanced 
technology without causing operational burden to operators.
    The initial R&D investment in nuclear and radiological detection 
devices is extremely more costly than most other products. It is 
therefore imperative that DNDO fund early research to lower the 
technical risk and raise the readiness of the material or technology to 
a point where industry is willing to absorb the remaining risk and 
develop a product. Thus, DNDO invests in innovative, high-risk, early-
stage technologies, subsequently transitioning them to industry for 
commercialization. This positions DNDO to acquire fully integrated 
systems once they are commercially available. This approach not only 
enables industry to rapidly improve detection technologies and enhance 
existing products, but it also stimulates industry to innovate in this 
mission space. DNDO has successfully transferred many technologies to 
industry for direct commercialization.
    Recognizing that some solutions may not require government 
development, DNDO now uses a ``commercial first'' acquisition strategy, 
engaging first with the private sector for existing solutions and only 
moving to a government-sponsored and managed development effort if 
necessary. This approach leverages industry-led innovation, takes 
advantage of industry's innate flexibility and ability to rapidly 
improve technologies, and reduces government-funded development 
efforts. In some cases, shifting to commercial-based acquisitions will 
reduce the total time to test, acquire, and field technology.
                                process
    DNDO applies a holistic, end-to-end approach to countering nuclear 
terrorism, beginning with a comprehensive understanding of the threat, 
including the material, the device, and the adversary. We integrate 
planning, research and technology development, testing and evaluation, 
and technology acquisition, with operational support to Federal, state, 
and local operators. For detection, our end-to-end approach begins with 
the development of an enhanced global nuclear detection architecture, 
which is a framework for detecting, analyzing, and reporting on nuclear 
and other radioactive materials that are out of regulatory control. 
Likewise, through the National Technical Nuclear Forensics Center, DNDO 
integrates planning, R&D, and operational readiness to improve the 
USG's nuclear forensics capabilities.
    DNDO's approach enables seamless integration of R&D programs into 
the full systems engineering lifecycle from identification of a 
technology need to deployment of a system to the field. Our Solution 
Development Process provides the mechanism to manage programs in 
compliance with DHS acquisition life cycle stage gates, effectively 
integrating these programs within the appropriate governance 
frameworks, and successfully applying the best practices of industry 
and government. We are participating in the reconstituted DHS Joint 
Requirements Council as it works to assess joint requirements for 
several investment portfolios.
    The Solutions Development Process is focused on the execution of an 
individual solution development from gap identification to post 
deployment activities. The first stage involves an analysis whereby 
gaps in the global nuclear detection architecture and technical nuclear 
forensics are identified and prioritized. Recognizing the continually 
evolving threat and the framework of defense, DNDO annually reviews 
multiple sources, including the global nuclear detection architecture 
analysis process (which includes threat modeling and risk assessment), 
guidance from the national technical nuclear forensics community, 
direct end-user interaction, recommendations from external portfolio 
reviews, and interactions with other USG R&D organizations.
    Next, the identified gaps and needs from the first stage are 
translated to prioritized programmatic needs to inform DNDO's budget 
formulation and decision process. The results of the gap analyses 
provide both concepts for specific topic areas, as well as perspective 
on other research areas that could broadly address a range of 
capability gaps. These gaps translate into the long-standing technical 
grand challenges, which ultimately form the research areas that make up 
DNDO's R&D portfolio.
    In subsequent stages, a given solution progresses from planning and 
analysis to a selection of options. Typically, program documentation 
required as part of these stages include a Mission Needs Statement, 
Analysis of Alternatives, and Operational Requirements Documents, all 
of which require close end-user collaboration. As it relates to R&D, 
DNDO continually engages stakeholders to better understand DHS end-user 
operations and nuclear detection requirements to inform R&D. Following 
the planning and selection stages, DNDO, jointly with operators, 
defines solution requirements and implements design, development, and 
testing. This is followed by the procurement and deployment of a system 
based on life cycle costs. DNDO also performs a post-implementation 
review to examine the systems deployed to the field. At each stage of 
the Solutions Development Process, the Governance Review Board, 
comprised of DNDO leadership and operational partners, conducts 
corresponding reviews to assess the health of the program.
    One example of a capability that matriculated through the Solutions 
Development Process is the development of a next-generation 
radioisotope identification device. We worked closely with our partners 
to identify key operational requirements that drove the new system 
design. Based on an enhanced detection material, lanthanum bromide, and 
improved algorithms, this new handheld technology is easy-to-use, 
lightweight, and more reliable. Because it has built-in calibration and 
diagnostics, it has a much lower annual maintenance cost.
    Another example that demonstrates DNDO's end-to-end approach is the 
joint effort between CBP and DNDO to address the high volume of 
nuisance alarms generated by deployed radiation portal monitors at our 
ports of entry. Under DNDO's Radiation Portal Monitor Program, DNDO and 
CBP implemented a new approach using Revised Operational Settings (ROS) 
to deployed portal monitors. This collaboration and effort resulted in 
an average reduction of approximately 75 percent of nuisance alarms 
without sacrificing detector performance against threat materials, 
allowing officers in the field to redirect their time to other high 
priority law enforcement duties. The fiscal year 2017 budget request 
for R&D includes work to continue to improve processes to further 
reduce nuisance alarms.
                    collaborations and partnerships
    Research and development of new or improved capabilities to aid in 
nuclear defense and countering the threat of nuclear terrorism 
principally rests with three organizations: DHS's DNDO, the Department 
of Energy (DOE) National Nuclear Security Administration's Office of 
Defense Nuclear Nonproliferation Research and Development, and the 
Department of Defense's (DoD) Defense Threat Reduction Agency. All have 
substantial, well-focused R&D programs that address technical gaps in 
threat detection and interdiction capability, focused on the unique 
needs of their respective mission areas and stakeholders. Further, the 
Office of the Director of National Intelligence plays an important 
intelligence and operational role in supporting the interagency 
research agenda.
    The interagency works jointly to assure the highest caliber 
research is solicited and selected by the Federal Government. These 
activities include advance sharing of potential research topics, and 
supporting each other's solicitation processes through technical advice 
and joint proposal reviews. Specific recent examples include 
collaborations with the Defense Advanced Research Project Agency 
(DARPA) SIGMA program on distributed radiation detection networks and 
DNDO's collaboration with the New York City Police Department on the 
Radiation Awareness and Interdiction Network (RAIN) Advanced Technology 
Demonstration.
    Within DHS, DNDO collaborates and coordinates with the USCG R&D 
Center and the Science and Technology Directorate (S&T), which performs 
R&D to support other DHS mission areas such as explosive detection. 
Some of the technologies developed by S&T can be utilized to detect 
radiological or nuclear threats. For example, if S&T develops a Non-
Intrusive Inspection (NII) x-ray scanner to more effectively detect 
drugs, explosives, or other contraband, these devices may also be 
effective in detecting radiological and nuclear threats. Further, DNDO 
also fully and actively supports relevant Integrated Product Teams led 
by S&T, including one on border security.
    DNDO also works closely with international partners on R&D through 
bilateral project arrangements. Two examples include:
  --United Kingdom: DNDO and the U.K. Home Office are jointly 
        developing and evaluating three transformational imaging and 
        radiation detection technologies for cargo scanning at ports of 
        entry and departure, one of which is also in collaboration with 
        S&T.
  --Singapore: DNDO and the Singapore Ministry of Home Affairs 
        conducted an operational trial in Singapore of the DNDO 
        developed RadMap System, which can detect and localize 
        radioactive materials while moving, as well as overlay 
        radiation data with visual and laser imaging data to enable a 
        3D reconstruction of the environment.
    DNDO continues to work with international stakeholders with similar 
radiological and nuclear detection goals and national capabilities in 
the area of R&D. Leveraging agreements between DHS and foreign 
organizations will allow DNDO to identify areas of mutual concern and 
compare research portfolios to minimize overlap in parallel efforts and 
maximize the breadth of R&D being done across mutual portfolios.
                           measuring progress
    To gauge the success of DNDO's R&D programs we internally track 
metrics that are indicative of progress and sponsor external reviews to 
assess the health and balance of our R&D portfolio. DNDO internally 
tracks the following metrics: program milestones, technology readiness 
level advancements, publications in peer-reviewed journals, 
presentations at recognized scientific conferences, intellectual 
property, licenses for software, awards in recognition of scientific 
achievements, and the number of students supported. Some of these 
metrics provide information about the progress and technological 
maturity of the projects and can also be used to assess the viability 
of technology transitions. Others indicate the ability to disseminate 
information to the broader scientific community and give insight into 
DNDO's efforts to cultivate the next generation of scientists and 
engineers for the nuclear-related missions. For example, DNDO's Chief 
Scientist patented a method and device for detecting moving radiation 
sources. The technique detects radioactive sources that are in motion 
and facilitates the rapid and accurate identification of the source of 
radioactive material. This invention is intended for use at seaports 
and border crossings that screen cargo containers, vehicles, or 
pedestrians for nuclear or other radioactive materials and in mobile 
radiation detectors deployed in search operations.
    Additionally, we sponsor external reviews of our R&D portfolio and 
will continue to do so in the future. For example, in 2013 and 2015, 
DNDO sponsored reviews by an independent party to assess DNDO's 
existing R&D plan and portfolio, evaluating the composition, 
positioning, and health of the portfolio as a whole against the 
strategic objectives of DNDO. The review committee consisted of subject 
matter experts, customers, interagency R&D partners, and DNDO 
management.
                            accomplishments
    Over the last several years DNDO investments in R&D have resulted 
in technologies that have transitioned from laboratories to commercial 
products used for homeland security. Some of those examples are listed 
below:
  --Neutron Detectors for Portal Monitors: DNDO research directly 
        facilitated the development of new materials to address the 
        critical shortage of helium-3, the primary material used by 
        radiation detectors to detect neutrons.\1\ Several different 
        concepts were developed and evaluated, e.g., boron-coated straw 
        proportional counters, and are now commercially available. The 
        alternative materials outperform helium-3 and are less 
        expensive and more sustainable.
---------------------------------------------------------------------------
    \1\ Neutrons, in addition to gamma-rays, are key indicators of 
materials used in nuclear weapons.
---------------------------------------------------------------------------
  --Combined Gamma and Neutron Detector Material: DNDO research 
        directly facilitated the development of cesium lithium yttrium 
        chloride (CLYC), a single scintillator material capable of both 
        gamma and neutron detection.\2\ Previously two different 
        detector materials had to be used, and sensors using CLYC are 
        now commercially available in detectors that are more compact, 
        lower power, lower cost, and more rugged than in the past. Due 
        to its ability to detect neutrons as well as gamma rays, CLYC 
        now stands as a viable helium-3 replacement for handheld 
        detectors.
---------------------------------------------------------------------------
    \2\ Some nuclear materials emit more gamma rays, and others emit 
more neutrons. Having one detector material that is sensitive to both 
of these primary emissions is advantageous.
---------------------------------------------------------------------------
  --Small Business-Developed Detector Material: Through the Small 
        Business Innovation Research Program, DNDO supported the 
        development of an improved process for the manufacture of 
        stilbene, a fast neutron detector material.\3\ This is now 
        available in the United States at lower cost and with improved 
        performance. Previously, it had only been available from 
        sources in the Ukraine.
---------------------------------------------------------------------------
    \3\ Fast neutrons emitted by nuclear material contain energy 
information that is helpful in identifying the source material. The 
advancement in fast neutron detection could lead to better 
identification equipment.
---------------------------------------------------------------------------
  --Automated Threat Recognition Software: The DNDO-developed Auto-ZTM 
        algorithm analyzes X-ray radiography images of cargo to 
        identify the objects that may be high-Z materials \4\ and 
        provides a visual ``alarm'' to the operator, noting the 
        suspicious objects in the image. To date, CBP has acquired and 
        fielded 11 systems that are equipped with Auto-ZTM.
---------------------------------------------------------------------------
    \4\ ``Z'' refers to the atomic number of an element, equal to the 
number of protons. ``High-Z'' materials include lead (Z=82), and 
nuclear materials like uranium (Z=92) and plutonium (Z=94), in 
comparison to carbon (Z=6) or nitrogen (Z=7), and are typically more 
dense.
---------------------------------------------------------------------------
  --Networked Detectors: Prior DNDO efforts related to an Intelligent 
        Radiation Sensor System led to new electronics, advanced 
        algorithms, and cell phone integration, enabling commercially 
        available networked radiation detection systems to be used for 
        improved wide- area search capabilities. Some of this 
        technology is also being evaluated by DNDO in collaboration 
        with the DARPA via their SIGMA program.
  --Enabling Imaging Technology: DNDO R&D facilitated the integration 
        of compact dual- energy x-ray generators with improved density 
        discrimination and higher shielding penetration into 
        commercially available mobile radiography systems.
  --Plutonium and Uranium Processing Capability: DNDO supported the 
        development of a laboratory-scale plutonium processing 
        capability to produce plutonium materials for forensics 
        signature development. In addition, a similar, laboratory-scale 
        uranium processing capability completed by DNDO is now 
        operating to produce uranium materials for signature 
        development.
              next generation of scientists and engineers
    DNDO also supports the next generation of scientists and engineers 
needed to execute the mission. DNDO invests in such expertise through 
the Academic Research Initiative by supporting areas such as advanced 
materials, nuclear engineering, radiochemistry, and deterrence theory. 
Since inception in 2007, DNDO has awarded 77 grants to 50 academic 
institutions, and supported over 400 students.
    DNDO's National Nuclear Forensics Expertise Development Program is 
another effort to grow and sustain the scientific expertise required to 
execute the national technical nuclear forensics mission. The program 
has been recognized by the DOE national laboratories, universities, and 
the interagency as a major success in restoring the pipeline of nuclear 
forensics scientists. Launched in 2008, this effort is a key component 
in preventing nuclear terrorism, and DNDO has supported over 300 
students and faculty, and 27 universities, since its inception.
    Currently, twenty-one students are pursuing their PhDs, along with 
16 post-doctoral fellows conducting research at the laboratories. 
Undergraduate scholarship and summer school initiatives are proving to 
be effective for recruiting future PhD candidates, with 15 new 
undergraduate participants each year.
    The program's education awards have directly sponsored nuclear 
forensics related curriculum development and research partnerships at 
15 universities around the country, including the hiring of eight new 
tenure-track junior faculty members. A total of 39 new Ph.D. nuclear 
forensic scientists are now in the workforce as a direct result of the 
program, already exceeding the threshold target of 35 set for 2018. 
These scientists are employed at the national laboratories, Federal 
agencies, and U.S. universities.
                       technical grand challenges
    Despite the progress we have made in R&D, there are five technical 
grand challenges that require sustained investment and are reflected 
within DNDO's Transformational R&D portfolio:
  --Cost-effective equipment with sufficient technical performance to 
        ensure widespread deployment;
  --Detection of special nuclear material, such as plutonium and 
        uranium, even when heavily shielded;
  --Enhanced wide-area searches in a variety of scenarios, to include 
        urban and highly cluttered environments;
  --Challenging pathways, such as between ports of entry along our land 
        and sea borders; and
  --Determination of the origins and manufacturing processes of seized 
        material.
    The fact that DNDO has supported the development of detector 
materials that did not exist in 2005 and which are now commercially 
available is a testament to the end-to-end R&D model DNDO applies to 
the particular set of challenges for countering nuclear terrorism.
                                closing
    DNDO's R&D is targeted to transform the basic building blocks of 
nuclear detection and technical nuclear forensics for dramatic 
capability improvements. We are committed to developing technologies 
for our partners to assist them in conducting their mission to protect 
the Nation more effectively. We engage in an end-to-end process, 
understanding the threat and user requirements; funding research, 
development, testing, and evaluation; engaging with industry, academia, 
and the national laboratories; and supporting the operator in the 
field. We seek the optimal solution for the problem at hand, whether it 
requires basic research, an off-the-shelf component, or a non-materiel 
capability. We are building not only equipment and capabilities, but 
also a trained workforce for the future.
    While we have seen significant results and promising technologies, 
technical challenges remain and the threat landscape continues to 
evolve, which necessitates continual evaluation of current and future 
needs and R&D investments and innovations. To this end, DNDO will 
continue to work with the interagency, national laboratories, 
international partners, industry, and academia to maximize the return 
on Federal investment.
    Thank you for your continued interest in and support for these 
efforts.

    Senator Hoeven. Thank you, Director.
    We will now go to questions. We will have 5-minute rounds.
    Senator Tester, would you like to proceed?

                          BILATERAL AGREEMENTS

    Senator Tester. I would like to. Thank you, Mr. Chairman. I 
appreciate the flexibility.
    And thank you, Ranking Member Shaheen, for the same.
    We are going to stay with you, Dr. Gowadia, as long as you 
just got done talking. You talk in your testimony about working 
closely with international partners on R&D through bilateral 
arrangements. You specify the United Kingdom and Singapore. Can 
you tell me how many other international partners you have that 
you are working with on bilateral agreements?
    Dr. Gowadia. I do not have the exact number off the top of 
my head, Senator Tester. But we have U.K., Sweden, Singapore--
--
    Senator Tester. So what you can do is just get that to me 
in writing.
    Dr. Gowadia. Certainly.
    [The information follows:]

    The Domestic Nuclear Detection Office (DNDO) has bilateral 
agreements on research and development, through the U.S. Department of 
Homeland Security Science & Technology Directorate, with the following 
countries:
  --Canada
  --Israel
  --Singapore
  --Sweden
  --United Kingdom
    Additionally, DNDO has bilateral agreements for cooperative 
activity in science and technology, operations, and policy for homeland 
security matters, also through the Science & Technology Directorate, 
with the following countries:
  --Australia
  --Canada
  --France
  --Germany
  --Israel
  --Mexico
  --Netherlands
  --Singapore
  --Sweden
  --United Kingdom

                     DETECTION OF NUCLEAR MATERIAL

    Senator Tester. And if these are agreements that are in 
process, or if you are trying to establish them.
    The second question I have for you, very briefly, in your 
technical grand challenges, detection of nuclear material, 
plutonium and uranium, even when they are heavily shielded. How 
close are you to being able to do that detection?
    Dr. Gowadia. Senator, we do already have capabilities where 
we can detect this material using active interrogation 
techniques, such as x-ray systems, et cetera. The goal and the 
challenge is to be able to do this in environments where we do 
not have to use 10 MeV energy rays, for example.
    Senator Tester. How close are you to getting there?
    Dr. Gowadia. It is hard to predict invention, but we have 
developed smaller scale systems, and we will be fielding them 
very shortly.
    Senator Tester. Okay.
    Dr. Gowadia. Importantly, we have developed algorithms that 
already ride on systems for today that can do some of this.

                           RANDOMIZER PROGRAM

    Senator Tester. Okay, thank you.
    Under Secretary Brothers, the TSA spent about $1.4 million 
on a PreCheck (Pre<check>\TM\) randomizer program, a pretty 
simple program. I think my 11-year-old granddaughter could have 
probably done the program. Nonetheless, $1.4 million was spent 
on it.
    When I was in the State legislature, we had the same 
problem, IT projects that we are farming out to IT companies, 
and it seems like we get fleeced a lot more often than we do 
not. I am not saying there was a fleecing on the randomizer, 
but the fact is that it is a pretty simple thing to be paying 
$1.4 million.
    Could you just talk about, is most of DHS software stuff 
farmed out to private contractors, at this point in time?
    Dr. Brothers. I cannot speak to the other components. I can 
speak to the kind of work that we do.
    Senator Tester. Yes, your IT work.
    Dr. Brothers. We do have some IT folks internal. We do farm 
some of it out, as you put it, as well. A lot of the IT 
software we have is commercially developed.
    With respect to some of the algorithm design that we might 
do, that is done in laboratories, small businesses, industry, 
et cetera.
    Senator Tester. By DHS, where they take a program and tweak 
it by you guys? Or do you take a standard program and does it 
go to an outside source for that tweaking?
    Dr. Brothers. Typically, the way we do our job is we 
identify needs. We then, through standard solicitation 
vehicles, identify potential solution providers. And then we 
fund those solution providers. Then through a rigorous method 
of evaluating the contracting process, we----
    Senator Tester. Yes, so the solution providers are outside 
DHS?
    Dr. Brothers. Yes.
    Senator Tester. The DHS opinion, and I know there are a lot 
of folks that want to privatize portions of government, and in 
some places it is the right thing to do, in IT's case, it is 
your position that this is more financially efficient than 
keeping it in-house?
    Dr. Brothers. What I can say is that, as you probably know, 
there is a tremendous amount of development in the IT space 
right now. If you look at where industry is going, there is 
tremendous explosion in that type of work as well as investment 
of those kinds of dollars. It is hard for DHS or other 
government agencies to match that level of investment that the 
private sector has.
    Senator Tester. Okay. I got you.
    It just sometimes makes me wonder. I get the off-the-shelf 
stuff, a program is taking care of that has already been built. 
There's no need to reinvent the wheel. But, oftentimes, you 
spend a lot of money, and we do not end up with much, to be 
honest with you. It is not just DHS, by the way.

                            LOW-FLYING RADAR

    I want to continue this on low-flying radar, particularly 
on the northern border, but it could be everywhere, southern 
border, ports, Great Lakes, wherever it may be. I have been 
talking about this for a while. It does not seem to be gaining 
any traction.
    But I was told that, right now, we could not detect an 
airplane, for the most part, on our northern border below 5,000 
feet. Is that your knowledge?
    Dr. Brothers. So I cannot speak in specifics. What I can 
say is our borders and maritime division has developed what 
they call their small and dark aircraft program. That is 
specifically for that type of problem. It is showing much 
better performance than----
    Senator Tester. I got you. So I live 100 miles from the 
northern border. Would you say that that northern border has 
access to be able to realize if there are low-flying aircraft 
coming across that border?
    Dr. Brothers. Could you repeat the question, please?
    Senator Tester. I personally live 100 miles south of the 
Canadian line. Do we have low-flying radar on that Canadian 
line right now?
    Dr. Brothers. Let me get back to you about that 
specifically. I want to make sure I get you the right answer.
    Senator Tester. I can tell you, and you correct me and I 
will correct it for the record, I do not think we do.
    Here's the problem. You can take a Cessna 182 and fly it 
far lower than 5,000 feet, land in an airport in a small town 
like I come from, Big Sandy--and I do not want to tell these 
guys how to do this--put your credit card in the machine, just 
like you do at a self-service fuel pump, fill up and take off, 
and we would never know what the hell is going on.
    So we spend a lot of money on security, and we should spend 
a lot of money on security, because we need to keep our 
citizens secure, but this seems like a no-brainer.
    So could you get back to me on what is going on?
    Dr. Brothers. More than glad to.
    [The information follows:]

    The radar coverage along the northern border is less than optimal 
below 5000 feet. However, in areas not obscured by mountainous terrain, 
low level coverage improves. All sensors along the Northern Border are 
ground-based and therefore, the curvature of the earth limits the 
ability to detect aircraft at lower altitudes. The most significant 
limitation to the coverage along the northern border is the mountainous 
terrain, particularly in the western United States.
    Radar systems along the Northern Border are designed and sited to 
address the air traffic management mission, not necessarily to optimize 
detection of low flying aircraft of interest to the national defense 
and security mission. However, in areas not obscured by terrain, CBP's 
Air and Marine Operations Center is able to monitor some of this lower 
altitude air traffic. The vast majority of the aircraft crossing the 
northern border complies with CBP and FAA regulations. During calendar 
years 2013-2015, of the thousands of aircraft that crossed our northern 
border, there were 79 aircraft initially reported/detected as unknown, 
74 of which were later determined to be non-suspicious by CBP.
    Small Dark Aircraft Detection and Timely Interdiction was 
identified as a high-priority capability gap in the recent DHS IPT 
process. Going forward, S&T will continue to work with CBP and the 
interagency to look at ways to improve our air surveillance 
capabilities, including the potential use of portable, flexible, wide 
area sensor system that detects and accurately tracks low flying, low 
observable aircraft such as helicopters, ultra-lights, small fixed wing 
general aviation aircraft in the rugged terrain found in many areas 
along the Northern Border.

    Senator Tester. I am over time. Sorry, Mr. Chairman,
    Senator Hoeven. Go ahead and finish.
    Senator Tester. Keep going?
    Senator Hoeven. Yes, unless you want to come back.

                           BAGGAGE SCREENERS

    Senator Tester. Okay, I will do one more. I have one more 
question. It has to do with baggage screeners. Since you are 
the guy we are dealing with, Under Secretary Brothers, we will 
stick with you.
    Baggage screening is something that I am concerned about, 
but I do not know that I should be concerned about it. So what 
I want to know is, do you believe the technology we have 
deployed for baggage scanners is adequate at this point in 
time?
    Dr. Brothers. I think there is always the issue whenever we 
do a project, for example, whenever we develop a technology, 
there is always a tradeoff. There is always tradeoff between 
security, privacy, security, speed of commerce, these kinds of 
things. Whenever we develop technologies and standard operating 
procedures, we are always in that tradeoff space.
    So one of the things we are working on right now is working 
with TSA to develop better algorithms for existing equipment. 
We are working with TSA to start thinking about better actual 
technologies in the next midterm. And then going forward, how 
do we think of better architecture for the entire airport?
    Senator Tester. That is good. So that was not my question, 
though. My question was, are the baggage scanners we have now 
adequate?
    Dr. Brothers. The reason I answered that way is because it 
depends on what you call sufficient. There is a whole risk-
based architecture we have.
    Senator Tester. I fly four legs a week. Should I be 
worried?
    Dr. Brothers. I think right now, from my perspective, from 
a technology perspective, we have some of the best technology 
we have out there.
    Senator Tester. Okay. Thank you very much.
    Thank you again, Mr. Chairman.
    I appreciate all of your testimony. Dr. Brinsfield, I feel 
guilty, but we will get you next time.

                      MEASURING THE EFFECTS OF R&D

    Senator Hoeven. Under Secretary Brothers, I would like to 
start with you.
    How do you measure effectiveness in your R&D efforts? That 
is kind of a broad question, but we can pick up with the UAS, 
unmanned aerial vehicle (UAV) example.
    Dr. Brothers. Sure.
    Senator Hoeven. Take countering the threat of unmanned 
aerial systems by adversaries. I mean, Senator Tester brought 
up that example. So what are you doing? How do you deal with 
that threat? And how do you determine your effectiveness?
    Dr. Brothers. Sure. Let me tell you what we have done so 
far. We are leading interagency in the science and technology 
part of understanding and mitigating the threat due to 
unattended air systems. So we have developed a whole-of-
community response.
    The whole-of-community response includes an after-action 
report from the gyrocopter incident when it landed at the White 
House. It includes operating procedures for law enforcement 
when they are faced with these types of incidents. And then it 
includes a whole technology piece as well.
    So in the technology piece, we have looked at a threat 
chain. The threat chain is essentially identify, characterize, 
track, mitigate, defeat. So that is the threat chain of how we 
think about if we are in a situation where we are threatened 
with some unattended vehicle.
    Then what we are doing is we are looking at each one of 
those areas of the threat chain and evaluating existing 
commercial technologies in those areas to figure out what is 
best.
    At the same time, we are working to understand how we would 
use those technologies in an architecture to protect an area, 
for example, the National Capital Region.
    So then, if you start talking about the metrics, what you 
are getting at, with respect to these metrics, for the counter-
UAS space, that is something we are working on right now.
    We had a workshop, co-hosted with the National Aeronautics 
and Space Administration (NASA) Jet Propulsion Laboratory. This 
was several months ago. At that workshop, we actually came up 
with a framework for what the test parameters should be for 
testing these types of technologies. So we are in the process 
of doing that right now.
    Senator Hoeven. How do you determine, then, whether you are 
going to continue a project or when you discontinue?
    Dr. Brothers. Sure. So what I was getting at is what we are 
doing with the whole-of-community response for the counter-UAS 
problem. With respect to what we are doing with our portfolio 
right now, we have a series of review processes. The first 
review process is at a lower level, which really has to do with 
schedule and budget and technical performance.
    So if we identify a problem with those, that is when we 
start knowing that we have to take some action.
    Then we look at a higher level. The higher level starts 
looking at metrics such as customer buy-in; the potential 
impact of the capability; if there is a novel approach; the 
technical feasibility of this; the transition likelihood, how 
likely is it to actually be used by an operator; foraging, 
technology foraging, has the program manager actually done a 
good job of looking at commercial technologies to see what they 
can leverage from that community; and then also whether or not 
this is a competency development for the Department, meaning 
are we leading in this area or not. So that becomes a more 
strategic evaluation of the portfolio.
    Going forward from that, then we start looking at what 
percentages of our products or initiatives have excellent key 
performance parameters. That starts giving us a sense of, okay, 
now, do we really have a good sense of how these things are 
going to perform for the intended audience?
    We start talking about what percentage of these projects 
have been independently evaluated. There is a whole list of 
metrics that we have that we talk about that we evaluate these 
projects on, not just on an individual project basis, but also 
on a portfolio basis.
    The reason why we do this is because what we want to be 
able to do is start thinking about, strategically, is our 
portfolio properly shaped? So, for example, if you think in 
terms of looking at our portfolio on axes of impact versus 
technical feasibility--that is, what kind of impact will they 
have for our operators and how technically feasible they are--
then we can plot all of our projects on charts like that. That 
then shows us how well we are doing. Are these highly risky 
projects? Are they not? Can they have high impact or not?
    Then we start thinking about what kind of balance we have 
in that space.
    Additionally, we can start thinking about individual 
performance parameters, as I mentioned earlier. For example, 
the capability impact, the customer buy-in, novel approaches. 
Then if we start thinking about portfolio in terms of a 
multidimensional plot in those terms, we then compare it to 
other organizations, because other organizations, whether they 
be more operationally focused, their portfolios more 
conservative, or their portfolios more aggressive, they will 
all show up with a certain multidimensional representation, so 
we can compare our portfolios to those.
    So now what we have is we have a process that starts at the 
very low level on schedule, budget, and technical feasibility, 
and goes up to the very strategic level.
    Senator Hoeven. I am going to come back and ask that 
specifically, then, in regard to technology for TSA, but I am 
going to turn to my ranking member first.

                          EVALUATING PROJECTS

    Senator Shaheen. Thank you.
    I have to say, Under Secretary Brothers, I understand that 
there is jargon that you use in evaluating projects, but I did 
not understand a thing you said just then. So give me an 
example that I can relate to, so that I can explain to people.
    Again, I understand you have metrics, and there is jargon 
in the metrics that tells you something. But if I am talking to 
an average voter out there who says, what are they doing at DHS 
to prioritize funding and to figure out what works and what 
does not, tell me what I should tell them.
    Dr. Brothers. Okay. Let me tell you this way. Let me try a 
different way, because I understand the issue with jargon, and 
I apologize, because I tend to use jargon too often. I am 
trying to break myself of that habit. I understand.
    Senator Shaheen. I do not like acronyms either.
    [Laughter.]
    Dr. Brothers. Okay.
    So one of the things that we have done, and I mentioned 
this in my opening statement, is we set up these integrated 
product teams. The purpose of these teams is to figure out what 
gaps we have in capabilities across the Department.
    So these can be gaps in our ability to do biosurveillance, 
for example, and biothreats. These can be gaps in our 
persistent surveillance on the border. They can be security 
concerns in cyber. They can be aviation security concerns.
    So what we do then is we convene groups of the actual 
operational personnel, the people who are doing the work, and 
say, what are your problems? We then come up with a list of 
what these problems are.
    We then put our resources against those problems.
    Now, regarding the metrics that I mentioned, the reason I 
brought that up is because we have a limited budget and we have 
a huge mission space. And so we have to figure out what the 
best use of the dollars. This IPT process is helping us do 
that. We are now focusing on things that the entire Department 
says are real problems.
    So now all the metrics and jargon and all that stuff, I 
apologize for using earlier, it has to do with how well do 
those programs fit into those kinds of gaps that we talked 
about. Do they really fit those gaps? Do they really fit the 
operational tactics, techniques, and procedures that the 
operators use in their missions?
    So what we do not want to do is create a technology that is 
not relevant to the operators. So that is part of the metrics. 
Is this really operational? Did we create something that can 
actually transition to the operator?
    So can I give you an example?
    Senator Shaheen. Please.
    Dr. Brothers. Okay, here's a story. Let's take these. These 
are gloves. These are firemen gloves. So if you look at these, 
they are different colors, but otherwise, they do not look very 
different.
    The point is, we talked to fire chiefs, and they told us 
they had a problem. They said the problem is it is hard to get 
these gloves on and off, particularly when these things are 
wet, it is hard to get these things on and off. It is 
particularly hard to get them on and off because we have to 
operate equipment. So wouldn't it be great if we could have 
gloves that either we don't have to take off, or if we do, they 
are easy to get on and off?
    That may not sound like a big deal, but it is a huge deal 
if you are trying to fight a fire. It is a huge deal.
    And so in order for something to transition, it has to meet 
a need. So we talked to our fire chiefs who have a need.
    Not only that, it has to be affordable. So that is another 
metric. Is this thing affordable?
    So we said there is not much difference in cost between the 
old ones and the new ones. These things are affordable.
    So when we talk about metrics, we have to talk about: Is it 
solving a real problem? Is it something that the operator is 
going to use?

               DHS APPROPRIATE R&D VERSES PRIVATE SECTOR

    Senator Shaheen. Okay, let me stop you there, because the 
other question that I have is, how do we determine what is 
appropriate for DHS to do in terms of R&D and what is 
appropriate for the private sector?
    So we have a company in New Hampshire, Globe Manufacturing, 
that does fireman suits. They do that kind of innovation on a 
regular basis as part of what they do. So how do you decide 
what is appropriate for DHS to do and what is actually out 
there filling a need in the private sector?
    Dr. Brothers. Sure. So the people that we address, that do 
our work, it is what I call an ecosystem. So it is 
universities, academia, laboratories, and industry. That is 
small and large industry, as well. And part of our job is to 
figure out what part of the ecosystem best addresses these 
problems. That depends. It just depends.
    That is part of what we call technology foraging. We have 
been really trying to push that even harder, how to answer the 
question you are talking about. How do we know if we should go 
to a laboratory, should we go to large industry, should we go 
to small industry?
    You mentioned in your statement about the Silicon Valley 
office. That is part of our effort to reach out to 
nontraditional performers, because I think it is essential, 
particularly now that you have so many creative people all over 
the place, right? You mentioned small businesses, right? Why it 
is important to be able to reach out to them.
    I have a meeting I think in May up in New England to talk 
about the ecosystem up there, the same thing, because it is not 
just Silicon Valley, it is all over the country.
    We have to figure out how to do a better job of addressing 
this ecosystem with our problems.

                        INTERAGENCY COORDINATION

    Senator Shaheen. My time is up, but can I ask another 
follow-up on this?
    The other question that I have is how do we determine what 
is part of DHS's portfolio and what is part of the Centers for 
Disease Control and Prevention (CDC), for example, on the Zika 
virus?
    How do you coordinate, Dr. Brinsfield, with the CDC on what 
they are working on and what you are working on? How do we 
coordinate, as you are talking about innovation, how do you 
coordinate with the Defense Advanced Research Projects Agency 
(DARPA) in the Department of Defense (DOD), with respect to the 
innovation that they are doing?
    So, Dr. Brinsfield, maybe you could talk a little about 
that.
    Dr. Brinsfield. Sure, absolutely.
    So I think we coordinate with the interagency in a number 
of ways. One, obviously, at a sort of senior interagency level, 
we get together and meet to discuss some of these issues.
    We also have regular calls and meetings with our CDC 
counterparts. And we participate on the Department of Health 
and Human Services' (HHS) public health and emergency 
countermeasures group. So for that, we sit and we help them 
define what their priorities are and what we see from the 
Homeland Security perspective.
    When we do research or when we work with S&T to do 
research, we are looking at very specific pieces of the puzzle, 
pieces that, as the blue ribbon panel defined, fall to DHS. 
Even prior Secretary Shalala pointed out that these are things 
that fall to the Homeland Security and DHS space.
    For that, we are looking specifically at the environmental 
detection piece or how we detect biological agents in the air, 
and we are looking at how we coordinate human health, animal 
health, and environmental health into a single picture, so that 
we can better inform our partners, not just in the human health 
arena, but across government and in State and local government 
as well.
    So we are really trying to focus specifically into those 
areas that are what we do at DHS.
    One piece of that, you asked how we work with other 
agencies specific to DOD, some of the demonstration projects 
that the National Biosurveillance Integration Center has done 
work closely with DOD and have, in fact, used their 
biosurveillance ecosystem and are trialing and beta testing 
some of their other systems in a public health environment, to 
see if there is cross use of some of those systems.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.

                             TSA TECHNOLOGY

    Senator Hoeven. Under Secretary Brothers, TSA Director 
Neffenger is working to put together people, processes, and 
technology, so that we have effective screening that finds and 
stops threats, but still is as convenient as possible for the 
traveling public. There is a whole variety of things that we 
consider, but it is putting together people, processes, and 
technology in the right mix to get the best results.
    Technology is your area. As you know, we had the inspector 
general report. There are some real issues with the technology 
that TSA is working. What are you doing on the technology part 
to make this work better?
    Dr. Brothers. As I was mentioning to Senator Tester, we are 
working with Admiral Neffenger. In fact, we have a meeting with 
him tomorrow, the working group.
    This working group is to really start addressing in the 
near, mid, and long term what these solutions should look like.
    In the very near term, we are working with industry on 
better software, essentially, for the machines. So there were 
some vulnerabilities established, and we are working with 
industry to develop better algorithms so that the existing 
machines actually work better than they are.
    In the near term, or maybe the midterm I should say, we are 
also working on better scanning equipment. One of the 
challenges--I mentioned this as well--is this whole speed 
versus security kind of paradigm. So we are working on 
different types of screening technology to enable passengers to 
actually move more quickly through the checkpoint.
    The third thing we are trying to do is start thinking 
about, if you actually think about the airport as a single 
entity, can you actually disaggregate the checkpoint? Can you 
take the different pieces apart and put them in different 
places, so that it is more convenient for the traveling public, 
and it still provides even greater levels of security?
    This is a longer term type of approach, of course.
    We are also working with TSA on what they call their 
technology lanes. This is at Denver and at JFK airports, where 
they are interested in putting in essentially a sandbox of 
equipment.
    So we are looking at existing equipment, some of this is in 
Europe and other places, this could be different types of 
baggage handling types of equipment, in the very near term 
improve our capabilities in the airports.
    So I think we are looking at this holistically from the 
entire airport, but also from the very near term of making the 
machines that exist right now better in place, and then adding 
existing technology to the checkpoint, to other parts of the 
airport, improving, coming up with better screening equipment, 
and then, like I said, going to other airport architectures.
    Senator Hoeven. So this is a very important area and an 
area where you can have significant impact. Do you have the 
resources and are you partnering with others to do all you can 
in this regard?
    Dr. Brothers. I believe we do. We are partnering very well. 
Like I said, we are about to make sure--both the Admiral and 
myself will be at this meeting tomorrow. We are partnering very 
closely with TSA. We are also partnering very closely with 
industry. So we are reaching out as much as we can.
    I think the questions asked earlier about how we are 
working with other agencies, we are working across the 
interagency on these kinds of issues as well.

                            TUNNEL DETECTION

    Senator Hoeven. How about for Customs and Border Protection 
and ICE in the area of tunnel detection and ground-based 
sensors? How are you doing?
    Dr. Brothers. So, for example, we have an installation of 
an underground system, underground fiber, that can be used to 
detect motion, essentially, in underground tunnels. So we have 
that installed. It is being tested.
    We have done a variety of work with underground sensors. 
The issue with underground sensors, quite frankly, is how you 
improve their probability of detection and decrease their 
probability of false alarm. Whether it be animals or people, we 
want to make sure it detects the right thing and only the right 
thing, because the more often we have false alarms, then it 
becomes an operational nightmare.
    Senator Hoeven. How are you coming?
    Dr. Brothers. Well, there are improvements. I think 
unattended underground sensors have been in the works for quite 
some time.
    Senator Hoeven. I have been out to see them, yes. I mean, I 
know some of what you have out there, but you are continuing to 
improve?
    Dr. Brothers. We are continuing the work, yes.
    Senator Hoeven. And you are making progress, in terms of 
improving on it?
    Dr. Brothers. Exactly.
    Senator Hoeven. Thank you.

                           TSA RANDOMIZER APP

    Senator Shaheen. So I want to go back to the issue that 
Senator Tester was raising about the randomizer app, because, 
according to an Associated Press (AP) story, the TSA paid IBM 
$336,413.59 for the mobile application development, which 
included the creation of the randomizer app, which someone 
pointed out could generally be designed in about 10 minutes for 
about $20.
    So do you know about this? And how does something like this 
happen? And how do we avoid this kind of expense for something 
that probably could've been done for much less money?
    Dr. Brothers. You know, Senator, I have no details on that. 
I think there are always challenges when people write 
requirements in these kinds of things, but I can't speak to 
that at all.

                              R&D EFFORTS

    Senator Shaheen. So something like this does not 
necessarily go through the Science and Technology Office?
    Dr. Brothers. I am not aware that this did.
    Senator Shaheen. The 2017 budget proposes combining all of 
the chemical, biological, radiological, nuclear, and explosive 
operations and policy development into one office, but the 
research and development efforts remain split.
    I do not know if this is for you, Dr. Gowadia or Under 
Secretary Brothers, but maybe one of you could walk us through 
how you divided up that portfolio and put them in different 
offices, while all the other operations are proposed to go in 
one office. What is the thinking about that?
    Dr. Brothers. I could start. We have had a number of 
conversations about this.
    I think there are different models of R&D, and I think the 
model that S&T has, because S&T is fundamentally an 
organization that supports the entire Department, the entire 
Department. When you think of an organization like that, my 
experience shows it is important to have an interdisciplinary 
center mass, meaning it is important to have people of 
different diverse backgrounds in proximity to one another, 
because, for example, when you look at different types of 
technologies, when you look at the advances that have been made 
in the biological sciences recently, a lot of those advances 
are because of advances in mathematics, commuter science, and 
these areas. And if people in these different fields weren't 
constantly talking, you would not have those kinds of advances.
    So for the kind of crosscutting work that S&T does, I think 
it is important that the kind of model we have is 
interdisciplinary.
    Now what we also talked about is the fact that Dr. 
Gowadia's organization is very focused. It is very focused. It 
is focused on a specific area. This specific area has its own 
specific language and technologies and things. So for that, Dr. 
Gowadia has an entire integrated process of R&D and 
acquisition.
    That is my belief why there are two different processes.
    Dr. Gowadia. May I expound just a little bit?
    When we were going through the process of looking at what 
should come into the new CBRNE office and what should not, one 
of the driving principles for the reorganization was to 
preserve programs and activities that were working. In 
acknowledgment of the fact that the model was working for the 
rad/nuke portion of the mission space, the Department decided 
to keep DNDO intact and move us over into the new CBRNE office 
to minimize disruptions to the organization while achieving the 
strategic reasons to do the reorganization.
    Speaking from the rad/nuke perspective, and I will pick up 
a little bit from what Mr. Brothers mentioned, the mission has 
a technical element from start to finish. However, not all 
solutions are technical. So when we begin to look at a mission 
need, when all of our operational partners, whether they are 
within the Department, Customs and Border Protection, TSA, 
Coast Guard, ICE, Secret Service, or out from our State and 
local partners, when they bring us a mission need, we couple 
that with a thorough understanding of the threat, understanding 
of the weapons, understanding of nuclear materials, and we are 
able then to devise a program forward that sometimes needs new 
technology and sometimes does not.
    Now, the best way to determine whether you want to go down 
one path or another is to use an interdisciplinary approach. 
But when I say interdisciplinary at this stage, I mean systems 
analysts, policy analysts, intel analysts, nuclear physicists 
and engineers, law enforcement, military officers. I have 
essentially described for you the DNDO work force.
    That is the level of interaction that needs to come into 
place to decide how you go down the path of developing a 
solution.
    Now once a technical solution is deemed necessary, we work 
with national laboratories, academia, industry. This is where 
the interdisciplinary measures that Mr. Brothers referred to 
come to bear. So we have physicists, mathematicians, chemists, 
all of them working together on the technical solution.
    So when we look at this mission, again, from front to end, 
there are technical aspects woven all through the whole system. 
If we were to disaggregate the rad/nuke mission based on 
function, you would have to recreate technical expertise in 
multiple directorates, multiple offices across operational 
components. And in this day and age with scarce budgets, it 
just does not seem efficient to have to duplicate that 
capability.
    Senator Shaheen. Well, maybe I did not ask the question 
very well. That was what I was trying to figure out, was why, 
if we are combining all of the other operational aspects of 
CBRNE into one office, why are we not combining the R&D part of 
that into that office as well? And why are we instead leaving 
it within Science and Technology? That is what I am trying to 
understand.
    Dr. Brothers. So right now, S&T does the chem and bio work 
for the Department. Again, we do work for more than just the 
BioWatch mission, for example, for bio. We have a number of 
different customers. So to take that and put it into this 
office, it would not be an efficient use of the kind of work we 
do right now, because we support more than just that mission.
    Senator Shaheen. Okay, maybe I need to go see it, because 
it is still not clear to me why you would not want to take the 
R&D that you are doing as part of that mission and move it with 
the rest of that operation.
    Dr. Brothers. Because the R&D that we have is integrated 
with other missions, so if you move that, you would be harming 
the other missions as well. And we have a good working 
relationship with the organization, as it is, so we are able to 
use the technology they are developing in that R&D in the 
organizations as they exist. If you took it out, you would be 
harming other missions.
    Senator Shaheen. Okay. Thank you.

                             BIOMETRIC EXIT

    Senator Hoeven. Under Secretary, DHS is working on getting 
the biometric exit system implemented, and it is something that 
we need in order to enforce against visa overstays.
    Where are you in terms of technology for the biometric exit 
system?
    Dr. Brothers. So right now, we have something called AEER, 
which is a project that we are working on with CBP, and TSA is 
aware of this. It is Air Entry Exit Reengineering (AEER), what 
it stands for, so we don't use acronyms.
    Senator Hoeven. Senator Shaheen does not like acronyms, so 
you are going to have to say the whole name.
    [Laughter.]
    Dr. Brothers. So the purpose of this project is to look at 
commercially available biometric technologies. We actually have 
a location in Maryland where these are all set up in checkpoint 
type fashion, where we evaluate not just the effectiveness of 
the individual technologies, but we evaluate the effectiveness 
of the system itself, as the process of going through the 
checkpoint.
    Where we are right now is we have completed most of the 
phases for CBP. We are still working on a detailed business 
case analysis of the system, and that is on the exit part of 
things. We are now starting to work more on the entry part of 
things with CBP.
    Senator Hoeven. Is the system ready for implementation?
    Dr. Brothers. Right now, CBP is scheduling field trials 
with technology based on the types of things we have done and 
the information we have given them. But they have to determine 
logistics and all those kinds of things. It is more than just 
technology. It is how you employ this in the checkpoints and 
these kinds of things.
    Senator Hoeven. Is AEER significantly different than the 
technologies that are available commercially on the market?
    Dr. Brothers. These are commercially available 
technologies.
    Senator Hoeven. So you just combine them?
    Dr. Brothers. We are combining them, right. So the issue is 
there are a lot of different technologies. So, for example, CBP 
wanted to use tablets for their operations. Because we had to 
test them out in this simulated environment, we found that that 
was not the best idea.
    So there is a distinction between whether a technology by 
itself works versus whether it works within a complicated 
system. So this is taking commercially available equipment and 
putting it in the actual operational environment.
    Senator Hoeven. Is it ready for implementation?
    Dr. Brothers. Technically, yes. But the issue, again, is--
--
    Senator Hoeven. So that is a little confusing. 
``Technically, yes.'' You have to explain that, because I am 
not sure what you mean when you say, ``Technically, yes.''
    Dr. Brothers. So there is technology that has been 
evaluated as ready to use. There are additional problems with 
how this would actually be used in the system by operators.
    So you can say there is technology that does various types 
of retinal scans and these kinds of things. Does it work? Yes, 
it does work. But the question is how would this actually work 
in the airport environment.
    Senator Hoeven. Absolutely. If that is what you mean by 
technically, we do not need technically, yes. We need a system 
that is ready for implementation. CBP is telling us that they 
are going to put it in this year, so I want to know if it is 
ready to go.
    Dr. Brothers. As far as I know, they are doing field 
trials. They are coming up. I do not have the schedule for 
that. That is when this type of evaluation will be completed.
    Senator Hoeven. Give me your guesstimate.
    Dr. Brothers. For a timeframe? I can get back to you on 
that. I really do not have a guesstimate on that.
    Senator Hoeven. Okay, because CBP is telling us, I believe, 
that they are going to be starting to implement--oh, 2018. I 
was a little optimistic there. They are still testing.
    Dr. Brothers. Yes.
    Senator Hoeven. Very good.

                           RAD/NUC PREVENTION

    Dr. Gowadia, you thought I was not going to come to you or 
Dr. Brinsfield, didn't you? It is just the way this is 
organized. It is easier for me.
    Tell us how DNDO works to prevent radiological or nuclear 
materials from entering the United States. So how do you work 
to make sure they do not get in here? And what does the public 
need to know about this? For the public out there that has a 
question when it comes to nuclear material, a dirty bomb or 
something like that, what should they know?
    Dr. Gowadia. Sir, as the President said in his weekly 
address this weekend from the Nuclear Security Summit, the 
threat of nuclear terrorism continues to be of grave concern. 
And if a terrorist organization, like ISIL, were to get their 
hands on some material, they would surely use it.
    As such, we have to work with our partners, beginning 
overseas. We work through the International Atomic Energy 
Agency (IAEA), through the State Department's Global Initiative 
to Counter Nuclear Terrorism, multiple fora such as that, to 
share best practices with our international partners, partner 
nations, et cetera, so that they themselves are building 
nuclear detection capabilities, nuclear forensics capabilities, 
securing their materials as well, adhering to treaties, 
building regulatory infrastructure, so that they can prosecute 
nuclear smugglers.
    As nation-states pick up their own nuclear security 
architectures, steadily the world gets more secure. So that is 
the first step.
    We then work right here at our borders, making sure that we 
have detection capabilities in the hands of our CBP officers. 
Almost a hundred percent of our containerized cargo is scanned 
for radiation detection before it is released into the country. 
Almost hundred percent of truck-borne cargo and vehicular 
traffic that comes across our northern and southern borders is 
scanned for radiation. All Coast Guard boarding parties carry 
radiation sensors. All general aviation aircraft are met with 
radiation sensors and CBP officers. Similarly, all TSA Visible 
Intermodal Prevention and Response (VIPR) teams carry radiation 
sensors.
    We are building Federal capabilities at our borders and 
within our transportation systems. Then we work with our State 
and local partners.
    Senator Hoeven. So that is important for the public to know 
what you just said.
    Dr. Gowadia. Absolutely. Absolutely, sir.
    We are building, steadily, a multilayered, multifaceted 
architecture here. So once we get to our State and local 
partners, they are building organic capabilities of their own. 
We train them, we exercise with them, we help them decide what 
equipment to buy, how much of it to buy. Once it is deployed, 
if they need alarm resolution support, we are there to help, 
share the information they need to know, so their awareness is 
at the right level, et cetera.
    So what you are hearing me talk about now is a systematic 
approach, a layered, multifaceted approach. So very often you 
hear that we have to be right every time; they only have to be 
right once.
    If we get this right, from material security, detection 
capabilities, laws and regulations, nuclear forensics, good 
consequence management, we tie all that together in a good 
nuclear security architecture, they have to be right so many 
times, increasing their operational footprint, allowing our 
intelligence community, our law enforcement partners to get 
them before they can put nuclear and other radioactive material 
to malevolent use.
    That is the work we are doing with our Federal partners, 
international partners, et cetera.
    Senator Hoeven. So whether it is air, whether it is 
seaborne, whether it is train, whether it is truck, all cargo 
is scanned.
    Dr. Gowadia. No, sir. Almost all containerized cargo that 
comes to us through our seaports is scanned using radiation 
portal monitors, and the high-risk cargo is also subject to----
    Senator Hoeven. What was that, the second one?
    Dr. Gowadia. All high-risk cargo is also subject to 
nonintrusive inspection using x-ray systems.
    Now, the important thing is----
    Senator Hoeven. First you said containerized, so all 
containerized?
    Dr. Gowadia. Seaborne containerized.
    Senator Hoeven. All seaborne containerized.
    Dr. Gowadia. And truck cargo that comes in across our land 
and seaports, yes, that, too.
    Senator Hoeven. All truck cargo, or just when there is a 
perceived----
    Dr. Gowadia. All truck cargo.
    Senator Hoeven. All truck cargo coming in?
    Dr. Gowadia. Yes, sir.
    Senator Hoeven. And all containerized seaborne?
    Dr. Gowadia. Almost all. It is in aviation that we are 
beginning to make strides slowly, aviation cargo.
    Senator Hoeven. In aviation, it is based on threat 
assessment?
    Dr. Gowadia. Yes, largely based on risk assessment.
    Senator Hoeven. And then for any train traffic, by and 
large, that is containerized now, isn't it? Anything that comes 
across the ocean would be. So it would be just essentially 
something from Canada or Mexico that is train-borne that might 
not be?
    Dr. Gowadia. So the train-borne cargo, and I do not have 
the exact number, but the vast majority of our train crossings 
have, again, these x-ray systems. So the trains are scanned 
using x-ray systems.
    Nuclear material is very, very dense. On an x-ray image, 
you would see it as a dark spot, so there is some capability at 
our train crossings.
    Senator Hoeven. I am just trying to understand what is 100 
percent scanned and what is threat assessment and then scanned. 
What I am getting is all containerized, all seaborne 
containerized. Trucks, trains would tend to be based on threat 
assessment.
    Dr. Gowadia. No. Truck cargo, all of it.
    Senator Hoeven. All of it.
    Dr. Gowadia. Train, all of it at these certain ports of 
entry using the x-ray systems.
    What we could do for you is we could break it down----
    Senator Hoeven. So then are we just talking some of the air 
luggage and so forth that is not?
    Dr. Gowadia. Now air shipments that that are like FedEx and 
the expedited couriers, that is 100 percent scanned as well.
    Senator Hoeven. So primarily we are down to, in essence, 
luggage of the traveling public. Again, that is threat assessed 
and then scanned.
    Dr. Gowadia. I would like to pull the string just a little 
further on the use of technology. Technology is a critical part 
of the global nuclear detection architecture, but it is not the 
only part. It is really important that we have systems that can 
be brought to bear if an intelligence cue goes up, if a law 
enforcement officer needs it.
    So our strategy is to make sure that we conduct 
intelligence-cued searches using the right technology in the 
hands of well-trained law enforcement officers, so we are 
building agile technologies that can go to the fight.
    Senator Hoeven. Right, I understand. It is scanning. It is 
a variety of technologies. But you are also working with TSA on 
this piece, as far as the luggage and so forth, backroom 
operations, those types of issues.
    Dr. Gowadia. With TSA, we are working on two fronts. First 
is with their VIPR teams. These are the Visible Intermodal 
Prevention and Response teams, the guys that go into the 
trains, the metros, the subways, et cetera.
    And we are also working with them on the air domain 
awareness board. With TSA, we are looking at are there regimes 
that we can put in place where, given an indicator that there 
is a risk, we can separate the population that needs attention 
from the population that does not, so we are building scanning 
regimes for aviation as well, building out the general aviation 
scanning ability.
    Now all CBP officers do meet general aviation that arrives 
with radiation scanners.
    Senator Hoeven. Okay, thank you.
    Senator Shaheen. So if I go to the border crossing in 
Pittsburgh, New Hampshire, that goes from Canada to the United 
States, every truck that comes across that border crossing is 
going to be scanned for nuclear material?
    Dr. Gowadia. It would go through a radiation portal monitor 
and it would be scanned, yes, ma'am.
    Senator Shaheen. And any planes that are landing anywhere 
in the United States, even at private airfields, are going to 
be met by somebody who would be able to scan for nuclear 
material?
    Dr. Gowadia. International general aviation aircraft are 
required to land within so many miles of the border, and then 
CBP officers meet them with radiation sensors and scan the 
aircraft, the luggage, the people, yes, ma'am.

                     BIOLOGICAL AND CHEMICAL THREAT

    Senator Shaheen. Dr. Brinsfield, as you think about the 
threat from biological and chemical weapons, what are your top 
priorities? How do you prioritize, I guess, first of all? And 
then if you are looking at what we need to do to respond to 
that, what criteria are you using in thinking about what the 
highest threats are?
    Dr. Brinsfield. So I think it is something we spend a lot 
of time talking and thinking about, knowing that we have to 
prioritize and use our resources wisely in this space. One of 
the things that we know from speaking with our colleagues from 
public discussions is that the threat really has not changed in 
the past decade on the bio space, whereas the risk continues, 
and may even be greater.
    So we look at the fact that we have to continue our day-to-
day operations with the BioWatch program and support of the 
State and local environments, but we also spend some time 
thinking about how we would make that system detect more 
potential agents, how synthetic biology or the ability to make 
new agents will affect our ability to detect in the next 
decade, how we think about how those detection capabilities are 
used for naturally occurring emerging infectious diseases, and 
how that really will change over the course of the next decade 
or so.
    We also look at that, similarly, in surveillance.
    What we have come to find is that the lessons that we would 
use in a biological attack get great use in all of these 
diseases that have come across our shores in the last few 
years.
    So those capabilities are really agnostic, if you will, to 
whether it is a terrorist use or whether it is a naturally 
occurring disease.
    Senator Shaheen. So in thinking about that, one of the 
challenges that we face in New Hampshire, and I think in many 
other States, is the heroin and opioid epidemic, where we have 
lost many more people than we anticipate losing from any of the 
other biological and chemical threats that we face, barring 
some world-threatening disaster.
    So how does something like that get prioritized and talked 
about? Right now, it appears to me that that is not considered, 
along with a list of things like Ebola and the Zika virus, as 
being threats to the public health. Yet the impact is much more 
devastating than we are seeing from either of those potential 
threats.
    So how do we look at that kind of threat and determine 
whether we need to increase our response to what is happening 
there?
    Dr. Brinsfield. So we also participate with the Surgeon 
General on their national prevention council. That is one of 
their priorities, particularly opioids and opioid abuse.
    I do not know if I mentioned that I spent 10 years working 
in Boston with the Boston EMF.
    Senator Shaheen. You did not, but I saw that in your 
resume.
    Dr. Brinsfield. That is actually one of the things we 
looked at back then, was how do you use surveillance to 
actually detect where there are overdoses and how that happens.
    In the past, it has been a bit controversial if we used 
National Biosurveillance Integration Center assets to do that 
type of work. But I do believe that when it comes down to it, a 
public health emergency is a public health emergency, and we 
often do not know if it is caused by an infectious disease or 
something else.
    I would appreciate the subcommittee's look and support as 
we start to think through how we diversify our look into some 
of the space.

                           NATURAL DISASTERS

    Senator Shaheen. Thank you very much for that response. I 
think it is really critical that we take a look at how we are 
defining these public health emergencies and the threat that is 
really posed to the population.
    Certainly, I think we have, as I said, this public health 
emergency that we have not really defined as such. So we have 
been very slow to respond at the level that we need to in order 
to provide communities and States with help that they need.
    If I can continue, Mr. Chairman, that then raises the issue 
of natural disasters. I guess this question is for you, Under 
Secretary Brothers, because as we think about the resources 
that we are dedicating to these natural disasters, about $13.7 
million I think in this year's budget proposal, natural 
disasters probably have a much greater impact to date than we 
have seen from threats from terrorism.
    So given the diversity of those natural disasters, given 
the challenges that they pose, can you help me understand how 
we determine how much we dedicate to that kind of research 
versus some of the other areas of research within the budget 
proposal?
    Dr. Brothers. Yes, so this is a hard problem, and it is a 
hard problem because it goes to this word called resilience. It 
is a difficult word, because it carries all this meaning but it 
is hard to actually define quantitatively. So the reason I 
bring that up is because, for us to start thinking about 
disaster response, part of that is the resilience of our 
infrastructure.
    So we have recently reformed a science and technology 
advisory committee. One of the things I asked that committee to 
do was to give me a better sense--this is a committee of world-
renowned experts in different areas. I said, you know, help me 
understand resilience. Help me understand, quantitatively, how 
do we build a resilient infrastructure, and what that means?
    So that is one way I am looking at this.
    The other way I am looking at this, I am talking to, for 
example, the Federal Emergency Management Agency (FEMA), and 
said, what are some of your biggest problems?
    If you take kind of the confluence of natural disasters, 
one of the biggest problems is flooding. So if you say it is 
flooding, why don't we figure out what we can do with flooding, 
because my concern is, as you look at natural disasters, there 
are so many different things we could look at. How do we figure 
out what to focus on?
    So as I am trying to understand and we are trying to get a 
better sense of what resiliency means, and how we do the best 
job of tapping that in our communities, if FEMA says, you know 
what, we really need to deal with flooding. We need to 
understand simple questions like when do we tell people to 
evacuate. How can we tell them earlier to evacuate or shelter 
in place? Simple questions, right? How do we know where 
flooding is going to occur based on geography and based on 
property records, where are properties?
    So that is a program we are doing right now, trying to help 
FEMA do a better job of understanding relatively simple 
concepts like that, but that are very difficult for real 
decision makers.
    Senator Shaheen. I think you are absolutely right about 
resiliency. It was one reason why I found it hard to understand 
the budget proposal, which last year included a significant 
amount of money to help with mitigation, which I define as 
another word for resiliency. It is how do we prevent and build 
into our infrastructure ways to avoid the worst damage when a 
disaster hits.
    Yet there was not money in the budget for that this year. 
So it seems to me that the more we can do in the way of 
prevention resiliency, as you call it, the better prepared we 
are going to be when a natural disaster strikes.
    Dr. Brothers. Agreed.
    Senator Shaheen. Thank you, Mr. Chairman.

                            BIOWATCH SYSTEM

    Senator Hoeven. Dr. Brinsfield, in a biological event, 
decision makers need information quickly, but it must also be 
accurate. This provides State and local public health officials 
the information to take appropriate action. Is the current 
BioWatch system capable of providing the real-time actionable 
information that officials need?
    Dr. Brinsfield. Sir, I would say, yes, and I would also say 
that, of course, there is more to do.
    So on the yes part, two things. First, the BioWatch system 
has spent much time in the last several years updating and 
changing the assays so that the issue of what had been called 
false positives or detection of a biological agent that did not 
cause human disease, those have not happened the last several 
years. The assays have been changed. The system is updated, so 
that we have better, more useful information.
    The system has also been tested. It has been tested in the 
laboratory. It has been tested in a controlled environment. And 
it has been tested in an open air environment.
    And then finally, the recent uptick in tularemia, a disease 
that can be naturally occurring in some of the States in the 
United States, showed us that even though there were low levels 
of human disease in a number of States across the United 
States, the system actually picked up in the air the tularemia 
and correctly identified areas in States where there was 
tularemia in the environment.
    So we look at all those different pieces to say, well, yes, 
the system does, in fact, work.
    Now does it tell State and local decision makers everything 
they need to know? No, it does not. So some of the things that 
we are looking at is how we can use the system more effectively 
in an indoor environment, how we can protect, say, concert 
halls and stadiums. How do we work to use the system in transit 
or other areas? How can we actually get that information so 
that it can be used in a time period where decision makers can 
decide whether or not to stay or evacuate as opposed to what we 
are doing now, which is helping decision makers decide whether 
or not to give antibiotics?
    So those are some of the challenges that we look to work 
with S&T and hope to solve in the near future.
    Senator Hoeven. How close are you to solving it? And how 
much is it going to cost? Do you have the level of funding you 
need now to do it? You got $82 million in 2016 and you are 
requesting $82 million. How much of that do you need to 
operate? How much is going into R&D? And how soon until you get 
to where you need to be?
    Dr. Brinsfield. So that number is purely for the day-to-day 
operations, and the continual quality assurance testing, et 
cetera, of the systems that currently exist.
    The R&D amounts, the pieces that are working through there, 
the pieces that are currently outgoing to Request for 
Information (RFI) to provide those improvements are something 
that we are doing in partnership with S&T. And Dr. Brothers is 
actually looking at those numbers right now.
    Senator Hoeven. That sounds like a handoff.
    Dr. Brothers. Yes. Let me make sure I have actual numbers 
for the R&D part of this. I may have to get back to you with 
that, in terms of the actual R&D numbers, if we can do that.
    What I can tell you, though, is, in terms of what we are 
doing with respect to the R&D, we are looking at enhancements, 
as Dr. Brinsfield said, to the existing system. We have both 
current and near-term and long-term plans for this. We have 
sent out a number of RFIs last year. We are about to, early 
next year, send out a Broad Agency Announcement (BAA).
    But again, this goes to the comments we were discussing 
earlier about how we do the best job of reaching out to 
industry to understand what the best answers are. So we are in 
the process of doing that right now.
    Senator Hoeven. We will want to get, from both of you, your 
estimate of the timeline to get where Dr. Brinsfield thinks the 
system is meeting the need and your estimate of how much we are 
spending and what we will need to spend.
    Dr. Brothers. Sure.
    [The information follows:]

    OHA and S&T are currently pursuing near-term enhancements (1-3 
years) and long term enhancements (7-10 years). Near-term enhancements 
include technologies that decrease time-to-detection and enable field 
characterization of the released biological threat. Long-term 
enhancements include autonomous systems that screen indoor environments 
for biological threats and new laboratory platforms that rapidly 
confirm and characterize samples suspected of containing a biological 
threat. The over-arching goal of all enhancements is to decrease the 
time it takes to detection and characterization of a biological attack 
to enable decision makers to respond more rapidly.
    The current level of R&D funding for the BioWatch Program is as 
follows:
        Fiscal year 15: $0.5M
        Fiscal year 16: $4.7M
        Fiscal year 17: $3 million
    The following funding amounts are for R&D, RDT&E, and transition of 
technology from S&T to BioWatch.
        Fiscal year 16: $4.7M
        Fiscal year 17: $3 million

                      DNDO WORKPLACE SATISFACTION

    Senator Hoeven. And then, Dr. Gowadia, what are you doing 
over there to get the good marks on DNDO being a good place to 
work? Maybe we can do more of that in some of the other parts 
of DHS.
    Dr. Gowadia. Thank you, Senator, for acknowledging the 
incredible work force at DNDO.
    Some of the things that I think have been our keys to 
success is, one, the interdisciplinary makeup that I mentioned 
allows the team to come together with a singular focus, look at 
a problem from start to finish, and actually see the needle 
move in the field. Nothing is more rewarding, if you'll forgive 
me, for a nerd than to actually know that an invention came to 
life, changed real action in the field, and made the life of an 
officer better.
    So we get to do that at DNDO. It is a tremendously 
challenging mission. It is very, very rewarding when we are 
able to meet with some of these successes.
    One of the things we do every year is we analyze our data. 
When we get our survey results, we tear it apart as a team, and 
we decide one, two, three things we are going to work on that 
year. We do a root cause analysis of where things can get 
better. Staff are encouraged to be candid and transparent.
    One of the first things we did was to increase our survey 
response numbers. If your soldiers aren't talking to you, you 
can't really help them. So that was the first thing we changed.
    We involve them in all solutions. You do not get to 
complain at DNDO. You get to fix it. And people get together 
and solve problems.
    Now, we cannot always do everything, and we are very honest 
about that.
    Again, every year when you commit to doing something, you 
got to see it through. And we do. It has really truly been an 
honor and privilege to work with this work force for, now, 11 
years.
    So thank you very much for acknowledging that.

                       INTERCONNECTED BY INTERNET

    Senator Hoeven. It is good to hear, and it is good you are 
getting those results. Good for you.
    Two other questions, just to kind of wrap up.
    Under Secretary Brothers, this goes to what we call the 
Internet of things, everything is so interconnected now. I 
mean, we live in such a technological age, do S&T and DHS more 
broadly look at just how interconnected everything is? And then 
if we have a problem in one area with the Internet or the grid 
or something else, how you prevent that from continuing to go 
through the different systems, whether it is security systems, 
utilities, I mean all of these things? Are there some fail-
safes or kind of protection, given the incredible connectivity 
of the Internet of things nowadays? Everything is connected to 
everything else.
    Dr. Brothers. Senator, you share our concerns. In fact, 
this goes to our Silicon Valley activity, where we said, what 
if we engage the folks who are actually doing the development 
work on the Internet of things and talk to them about security? 
What are their concerns?
    What we did is we convened a working group with a lot of 
industry out there. We said, what do you think the problems 
are? What are you concerned about? And they came back with 
three major issues. They came back with detecting components 
and connections, and how do you know something is connected? 
They came back with authenticating components. Is this the 
component I think it is? Is this a good component, a bad 
component? And then updating, how do you update these 
components?
    So what we did then is we actually were able to, using our 
collaboration with Under Secretary for management's team, able 
to quickly turn around in a matter of 2 to 3 months, actually, 
go from solicitation to contract award, which is quite a 
record, I think, to actually contract one company to look at 
the first problem. That is detecting components and 
connections, and look at the other ones.
    I think we are also working with industry consortia on this 
issue. Right now, I think what we are trying to understand is 
what is the role we should play here, standards, for example.
    So if you are looking at the IT space for cyber, the 
National Institute of Standards and Technology (NIST) developed 
a set of standards, so-called cyber framework, a framework for 
thinking about Independent Review Team (IRT).
    So right now (IRT) is taking off. We do not want to be left 
behind in terms of how we think about security, and we are 
aggressively pushing forward in that way.
    Senator Hoeven. I think you need to be. It is a holistic 
approach where sometimes you can miss the forest for the trees. 
You have to look at the whole big picture to know, if something 
happens to one part of it, that you can somehow contain it.
    Dr. Brothers. Agreed.
    Senator Hoeven. And not have it affect everything, the 
chain reaction aspect.
    Dr. Brothers. Exactly.
    Senator Hoeven. I think that is in your bailiwick, if you 
will, thinking about that and then finding, as you say, some of 
the brightest people from wherever to help you.
    Dr. Brothers. It is. We have had conversations about this 
whole area of complexity. When you have interconnected systems 
and small failures in one, how does that avalanche into larger 
failures in others? These are areas we are trying to invest in.
    Senator Hoeven. For any one of you, how much do you use 
social media to kind of gauge where you should be putting your 
efforts or trying to evaluate or determine a risk? Do you have 
people looking at social media to see what is coming?
    The other thing is, when you come up with something really 
good, are you filing patents? Are you getting significant 
revenue from that?
    Just kind of touch on those.
    Dr. Brothers. Thanks for asking that.
    In terms of the first question, social media, one of the 
things we first did when I came onboard was I was interested in 
defining some long-term visions. Where do we want to be in 10, 
20, 30 years, so that we can well-align our investment dollars. 
So we started this effort called Visionary Goals.
    We started by just looking internally and asking our folks, 
what do you think are four or five different goals we could 
have? We then compiled the list. We then went to the rest of 
the components and got their input. We said, what if we 
actually went to social media? Just what you are asking.
    We actually got 1,500 people who registered for our site. I 
thought that was pretty amazing, quite frankly. They came back 
with a lot of really fascinating comments on what they thought 
was important for Homeland Security to look at.
    Then we went beyond that. We said, what if we actually 
started a national conversation? We started a national 
conversation about wearables for first responders, and we are 
expanding that to other areas. We are actually starting as well 
with how to develop an ecosystem around one of our 
laboratories, a business ecosystem around one of our 
laboratories.
    So I think we are getting a lot of good results from that, 
because one of the issues is how we communicate to our 
stakeholders on what our problems are and how do we listen 
back. We are finding that a really good process.
    With respect to patents, we just received a patent award 
this week, so it is timely you asked the question.
    This actually has to do with special tape that is used to 
secure cargo. We created a new process to make it even more 
efficient at what it does.
    One of my concerns coming in is, do we take patenting 
seriously enough? We have now revamped our patent portfolio 
because S&T actually handles the patent portfolio for the 
entire Department. So we are looking very strongly at that.
    I think when you start thinking about things like patents 
and all that, you are making sure that your work force is being 
innovative and you are trying your best to stay ahead of this 
very rapidly moving space.
    Senator Hoeven. Very good.
    Anything, Dr. Brinsfield or Dr. Gowadia, that you want to 
add to that, on either social media or patents?
    Dr. Brinsfield. So we have looked briefly at social media. 
We certainly participate in social media connection with our 
public health community. And we have also looked at social 
media to see if it can predict diseases, outbreaks, worked with 
other interagency partners on that without great usability or 
success so far in being able to have social media, when people 
use terms such as ``sick'' or ``ill,'' actually predict when 
there is going to be a biological disease.
    So it is something that we have looked at in the aggregate 
form, not in particular people, but in the aggregate form, 
without it being highly predictive at this point.
    Dr. Gowadia. Senator, we do not work directly through the 
social media channel, per se, but we work very closely with the 
intelligence community. And certainly, our law enforcement 
partners stay on top of intelligence indicators and cues for 
something that does not fit in their backyard, something that 
has gone amiss. And we have a very strong interagency 
partnership to make sure that early cues trigger the entire 
system.
    Senator Hoeven. Thank you.
    Senator.
    Senator Shaheen. Thank you. I just have a final question.
    But before that, I want to add my congratulations to 
Senator Hoeven's to you, Dr. Gowadia, and DNDO for all of the 
good work and for the recognition.
    It sort of leads me to my last question, because I 
understand, Dr. Brinsfield, that one of the areas of your focus 
is work force health.
    And having watched some first responders in New Hampshire, 
law enforcement and firefighters, EMTs who are there on the 
frontlines dealing with a crisis, I appreciate their physical 
and mental well-being is sometimes very much affected by what 
they are doing on their jobs.
    So can you talk a little bit about what you are seeing in 
your work that is important to protect the work force, both 
physically and mentally?
    Dr. Brinsfield. Yes, ma'am. I think that is something that 
we consider very important, whether you look at it from what we 
should do to take care of our employees, or you look at it 
purely from a fiscal perspective, we need our work force to be 
healthy and effective, and be able to focus on their mission.
    To that end, we work carefully with all the different 
component medical support systems, so that we give them 
advisories on new threats, things that they might have a need 
to talk to their work force about. We take particular questions 
from the different components on these issues. We have worked 
with several of the operational components to help work with 
doctors and have them have medical liaison officers or lead 
doctors in each of the components that can focus on their 
particular mission set and how to keep their areas safe.
    We have also worked, as I have mentioned before, with the 
EMTs and paramedics. Most of these are dual-trained agents, 
EMTs or paramedics. In many areas that our agents within DHS 
work, this is the only medical care available to them in either 
the short or long range, in some places up to 4-plus hours 
before they can get to a regular U.S. system for medical care.
    So we have worked very carefully with them to not just 
ensure that they are credentialed and qualified and able to do 
their jobs, but also that they have the particular protocols 
and support systems they need, if they are working in some of 
those more unique environments and need special support.
    We also are very interested in the mental health and well-
being of our work force. And I know I mentioned before I spent 
a long time working with first responder community and have 
seen years and years of examples of how wearing it is to work 
in this community.
    So to that end, we have a program that looks specifically 
at those issues. We are looking at ways to bring in more 
expertise in this area and really build and develop on that and 
have good relationships with our operational component partners 
and hope to continue that work.
    Senator Shaheen. Are you sharing what you learn with DOD 
and the Department of Veterans Affairs (VA), which is the one 
that comes to mind first when we think of mental health and 
people who are doing work in that area, because they are facing 
a lot of those challenges?
    Dr. Brinsfield. Yes, ma'am. In particular, when we first 
started looking at this issue, we went and sat at DOD, at the 
Chief of Staff's regular meeting that he has on how to prevent 
suicide in the work force, and we worked to see if we could 
learn whatever lessons we could learn from DOD in this space.
    We also are trying to work on some of the relationships 
with, say, the International Association of Chiefs of Police 
and others to take some of the lessons that they have learned 
and be able to use that.
    Senator Shaheen. And I assume you are sharing with them 
what you are learning as well.
    Dr. Brinsfield. Absolutely. One of the things that we are 
just beginning to look at, the National Academy of Sciences 
Institute of Medicine is interested in putting together a work 
area on this, particularly on the well-being of first 
responders and how this plays. That is something that we are 
working with at the ground floor level.
    Senator Shaheen. Thank you.
    Thank you all very much. I think the public probably has 
very little awareness of the Science and Technology agency 
within DHS, and yet you are working on some of the most 
innovative aspects of the challenge that we have in protecting 
the homeland and keeping people safe, so thank you all very 
much.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Hoeven. This will conclude our hearing today.
    We appreciate the witnesses' testimony. Again, thanks to 
all of you for being here and for the work you do, very 
important work that you do.
    The hearing record will remain open for 2 weeks from today. 
Senators may submit written questions for the record, and we 
ask that the Department respond to them within a reasonable 
length of time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
           Questions Submitted by Senator Senator John Hoeven
    Question. In response to a question regarding whether BioWatch was 
capable of ``providing the real-time, actionable information that 
officials want and need,'' you answered in the affirmative. According 
to data you have provided subcommittee staff, however, it could take 24 
to 36 hours in order for a hazard to be detected. Furthermore, BioWatch 
has repeatedly been the subject of GAO and OIG reports regarding the 
quality of information provided. In order to provide the Office of 
Health Affairs with the appropriate resources, we must understand the 
effectiveness and capabilities of its programs. Could you please 
provide additional information to explain your response?
    Answer. BioWatch is the nation's only biodetection capability that 
provides early warning and facilitates jurisdictional preparedness in 
the event of an aerozolized biological attack. The Program provides 
accurate and actionable information to local, state, and Federal 
stakeholders 12-36 hours after a release--allowing for rapid 
decisionmaking upon notification of a biological incident.
    Early warning of a biological attack saves lives and mitigates 
damage. Each hour gained through early detection and before the onset 
of medical symptoms, improves the chances that response efforts will be 
successful. Early detection of a biological attack allows response 
officials to dispense lifesaving medical countermeasures during a 
critical window of time before symptoms appear in the public. If these 
medications are dispensed early enough, lives will be saved and many of 
those exposed may never even become ill. Without this detection 
capability, biological attacks would remain undetected for several days 
until symptoms began to manifest in the public. The associated delay in 
response would result in increased casualties and fatalities.
    BioWatch provides as close to ``real time'' information as 
currently technology allows. Analysis has shown that BioWatch's current 
notification timeline provides sufficient warning to deploy and 
dispense life-saving medical countermeasures to potentially exposed 
people before they develop symptoms.\1\ Development of technologies and 
methodologies to decrease the time window from attack to detection has 
been and remains a priority for the BioWatch Program. The DHS Office of 
Health Affairs (OHA) and DHS Science and Technology Directorate (S&T) 
are jointly developing a plan to enhance the current BioWatch system, 
with a major focus on decreasing the time to detect timeline. The 
Department will review this plan as part of the ongoing budget 
deliberations for fiscal year 2018.
---------------------------------------------------------------------------
    \1\ Sandia National Laboratories: BioWatch Early Detection for 
Exposure Prevention Analysis: Task 2 & 3 Final Results July 31, 2013 
(SAND2013-6711P)
---------------------------------------------------------------------------
    Furthermore, the BioWatch Program provides accurate, actionable 
information that enables State and local officials to take prompt and 
appropriate response actions. The accuracy of the BioWatch data, and 
effectiveness of the system, has been affirmed in multiple ways. The 
Program's detection capabilities have been independently tested and 
validated by 4 testing events conducted over the last 5 years, 
including testing in a laboratory, in an aerosol chamber environment, 
and in an open air environment. The results of these tests reinforce 
the Department's confidence in the system's ability to perform the 
mission for which it was intended: detecting a large-scale aerosol 
release of specific threat agents in our most populous cities.
    Last year the BioWatch Program analyzed over 237,000 samples from 
across all BioWatch jurisdictions, with 8 detections that qualified as 
a BioWatch Actionable Result (BAR). Although a BAR does not necessarily 
mean that an intentional or terrorist-related release has occurred, it 
allows for immediate response actions to gather additional information 
and assess the Public Health risk, with inputs from Federal, State, and 
Local agencies. Recent detections that occurred in the Denver 
jurisdiction correctly correlated with an uptick in Tularemia (human 
and animal cases), a disease that can be naturally occurring in some 
parts of the United States. The accuracy of the BioWatch data is 
further affirmed by the BioWatch Quality Assurance (QA) program. The QA 
program has analyzed over 35,800 QA samples since 2011, enhancing 
defensibility and confidence in the results.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. It is my understanding that the Department is working to 
identify opportunities for cost savings through performance and 
management reforms, including the consolidation of administrative 
functions. Can you provide the subcommittee with an update on your 
efforts to improve efficiency of operations and help the agency better 
accomplish its mission?
    Answer. Last year, I asked my leadership at S&T to look at the 
organization's administrative functions and check whether there were 
options for cost reduction or more efficient processes. In the process, 
we realized it does not always make sense to pay wages based on 
Washington DC's high cost of living for S&T functions focused primarily 
on processing paperwork.
    Currently, S&T is piloting an effort to locate much of the 
administration associated with S&T's travel at an office in Jackson, 
Mississippi. With a lower cost of living and a smaller S&T footprint 
through telework, we expect to reduce costs associated with overseeing 
travel by 50 percent. We scouted a location for the office space, 
identified staff within S&T to lead the effort, and expect the pilot to 
be fully up and running by the end of this calendar year.
    Question. The Department's Joint Tunnel Task force is seeking 
innovative technologies to help Customs and Border Protection and law 
enforcement agencies detect illegal intrusions on our border. Are you 
collaborating with other Federal agencies, including the Department of 
Defense, to advance important research and make use of existing 
capabilities in this area? The Engineer Research and Development Center 
at the Corps of Engineers has helped develop some useful tunnel 
detection capabilities. How can this committee assist you in 
strengthening collaborations with others and transitioning these 
technologies into the field?
    Answer. Thank you for your continued support for S&T's tunnel 
detection program. Our program has worked and continues to work closely 
with the Department of Defense (DoD) and other Federal agencies on this 
challenging issue. In 2010 and 2011, S&T and DoD co-funded a Joint 
Capability Technical Demonstration (JCTD) with the Engineer Research 
and Development Center (ERDC) to install and evaluate the Border 
Tunneling Activity Detection System (B- TADS) in the Otay Mesa area of 
the southern border. With ERDC, we also co-funded construction of a 
test tunnel at the Yuma Proving Grounds to test existing and prototype 
tunnel detection equipment. Working with the U.S. Geological Survey 
(USGS) and DoD's Defense Threat Reduction Agency (DTRA), we developed a 
computer model to predict the performance of prospective tunnel 
detection sensors. We also regularly work with subject matter experts 
at DoD's Joint Improvised-Threat Defeat Agency (JIDA) Tunnel Program 
Office and take advantage of their significant experience with domestic 
and foreign geology, environmental noise signatures, and performance 
assessments of various tunnel detection technologies. The JIDA Tunnel 
Program Office recently funded S&T to make performance predictions of 
various tunnel detection systems that could be deployed in their 
theater of operations. More recently, we held several technical 
interchange meetings with Raytheon, the developer of the B-TADS system, 
to explore utilizing our tunnel detection performance modeling tool to 
improve its system performance.
    S&T's tunnel detection program is grounded on close interagency 
collaboration drawing on diverse expertise across the Federal 
government. Moving forward, we will continue to leverage resources and 
experience at DoD, ERDC, and elsewhere to deliver cutting edge science 
and new capabilities to our operators on the border.

                          SUBCOMMITTEE RECESS

    Senator Hoeven. With that, the subcommittee stands in 
recess. Thanks so much.
    [Whereupon, at 4:15 p.m., Wednesday, April 6, the 
subcommittee was recessed, to reconvene at a time subject to 
the call of the Chair.]
</pre></body></html>
